App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BOB LEWIS,
Plaintiff-Appellant,
v.

No. 20-16073
D.C. No. 3:20-cv-00085-SK
MEMORANDUM*

GOOGLE LLC, A Delaware
Corporation; YOUTUBE,
LLC, A Delaware Limited
Liability Company,

(Filed Apr. 15, 2021)

Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California
Sallie Kim, Magistrate Judge, Presiding
\

Submitted February 5, 2021**
San Francisco, California
Before: RAWLINSON and BUMATAY, Circuit Judges,
and S. MURPHY,*** District Judge.
Concurrence by Judge RAWLINSON

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Stephen J. Murphy, III, United States
District Judge for the Eastern District of Michigan, sitting by des­
ignation.

App. 2
Bob Lewis (“Lewis”), an author, journalist, pundit,
and political commentator, sued Google, LLC and
YouTube, LLC on several claims surrounding Lewis’s
YouTube channel, Misandry Today. The district court
dismissed each claim, and we affirm.
First, the district court dismissed for lack of stand­
ing Lewis’ claims that § 230 of the Communications
Decency Act (“CDA”) was unconstitutional and that
YouTube did not meet the “good faith” requirement of
§ 230(c)(2). We review questions of standing de novo
but review the “underlying factual findings ... for
clear error.” McCormack v. Herzog, 788 F.3d 1017,1024
(9th Cir. 2015).
Constitutional standing requires a plaintiff to
show (1) an “injury in fact” that is “concrete and partic­
ularized,” “actual or imminent”; (2) that the injury is
“fairly traceable to the challenged actions of the de­
fendant”; and (3) that it is “likely” “that the injury will
be redressed by a favorable decision.” Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560-61 (1992) (simplified). The
standing analysis is claim specific. Town of Chester v.
Laroe Estates, Inc., 137 S. Ct. 1645,1650 (2017).
None of the alleged injuries in Lewis’ challenge to
the CDA’s constitutionality are fairly traceable to the
application of § 230 of the CDA. First, the district court
found that Lewis lacked standing to challenge the con­
stitutionality of § 230. Lewis’s alleged injuries—re­
moving videos, cancelling advertisement sharing, and
so-called “shadow banning”—all arose from the actions

App. 3
of YouTube, a private entity,1 as it enforced its own
standards. Section 230 does not apply to Lewis’s con­
duct or provide a mechanism for sanctions that could
affect Lewis; instead, it provides immunity to “provid­
ers of interactive computer services against liability
arising from content created by third parties.”2 Fair
Hous. Council ofSan Fernando Valley v. Roomates.com,
LLC, 521 F.3d 1157, 1162 (9th Cir. 2008) (en banc)).
Lewis has therefore failed to show an injury that is
fairly traceable to the CDA.
The district court next found that Lewis lacked
standing to challenge the application of the “good
faith” requirement in § 230(c)(2)(a) of the CDA. But
Lewis raised no arguments on appeal that specifically
challenged the determination. And YouTube never re­
lied on the specific subdivision of § 230 in the motion
to dismiss or the immunity arguments under the CDA.
Because no party invoked § 230(c)(2)(a), the provision
did not harm Lewis, and no injury was traceable to it.

i «

The Free Speech Clause of the First Amendment prohibits
the government—not a private party—from abridging speech.”
Prager Univ. v. Google LLC, 951 F.3d 991, 996 (9th Cir. 2020). As
“a private entity,” although YouTube provides a forum for speech,
it is not “transform[ed] into a state actor. Id. at 996-97.
2 Lewis’ overbreadth argument facially challenging the CDA
fails. Only “an individual whose own speech or conduct may be
prohibited is permitted to challenge a statute on its facet.]” Bd. of
Airport Comm’rs of City of L.A. v. Jews for Jesus, Inc., 482 U.S.
569, 574 (1987). Section 230 does not prohibit any speech. And
Lewis’ challenge does not fall under the category of persons
“whose own speech or conduct” may be prohibited.

App. 4
Without an injury, the district court did not err in find­
ing Lewis lacked standing to bring the claim.
The district court also found that Lewis failed to
allege sufficient facts to state a claim on his remain­
ing claims. We review de novo a district court’s dis­
missal for failure to state a claim under Rule 12(b)(6).
Curtis v. Irwin Indus., Inc., 913 F.3d 1146, 1151 (9th
Cir. 2019). We accept “all factual allegations in the
complaint as true and construe the pleadings in the
light most favorable to the nonmoving party.” Rowe v.
Educ. Credit Mgmt. Corp., 559 F.3d 1028,1029-30 (9th
Cir. 2009).
Only a person “acting under color of state law” can
commit a First Amendment violation actionable under
42 U.S.C. § 1983. Crumpton v. Gates, 947 F.2d 1418,
1420 (9th Cir. 1991). Here, Lewis sued private entities
and asserted no actions that occurred under color of
state law. See Prager Univ., 951 at 996 (“YouTube is a
private entity.”). YouTube committed no § 1983 viola­
tion here.
First, Lewis brought a claim under Title II of the
Civil Rights Act, 42 U.S.C. § 2000a(a), which provides
for “full and equal enjoyment” of the goods and services
of “any place of public accommodation.” But YouTube’s
websites are not a “place of public accommodation.” Id.
Title II “covers only places, lodgings, facilities [,] and es­
tablishments,” and the statute itself is devoid of lan­
guage which would “indicate congressional intent to
regulate anything other than public facilities.” Clegg u.
Cult Awareness Network, 18 F.3d 752, 755-56 (9th Cir.

App. 5
1994). To conclude Google or YouTube were places of
public accommodation under Title II “would obfuscate
the term ‘place’ and render nugatory the examples
Congress provides to illuminate the meaning of that
term”Id. at 755. The district court did not err in dis­
missing Lewis’s Title II claim.
Next, Lewis asserted a claim under the Lanham
Act for false advertising, 15 U.S.C. § 1125(a)(1)(B). To
sue under § 1125(a), “a plaintiff must allege an injury
to a commercial interest in reputation or sales,” and
thus, a consumer cannot bring a claim under the Lan­
ham Act. Lexmark Int’l v. Static Control Components,
Inc. ,572 U.S. 118,131-32 (2014). Lewis asserted claims
as a consumer on the Google platform and not as a
competitor with a commercial interest in reputation or
sales. Accordingly, the district court properly dismissed
Lewis’s Lanham Act claim for failure to state a claim.
Lewis also brought a claim for fraud by omission.
Under California law, a claim of fraud by omission re­
quires a showing of “(1) the concealment or suppres­
sion of material fact, (2) a duty to disclose the fact to
the plaintiff, (3) intentional concealment with intent to
defraud, (4) justifiable reliance, and (5) resulting dam­
ages.” Mui Ho v. Toyota Motor Corp.} 931 F. Supp. 2d
987, 999 (N.D. Cal. 2013) (citation omitted). Lewis did
not allege any facts that asserted YouTube had a duty
to disclose to Lewis. Lewis’s allegations did not show
any alleged concealment of a material fact or reasona­
ble reliance even as Lewis purported that YouTube
failed to disclose that they censor hate speech.

App. 6
And, under California law, a plaintiff cannot
demonstrate reasonable reliance on an alleged omis­
sion of information when the purportedly omitted in­
formation is disclosed in a contract. Davis v. HSBC
Bank Nev., N.A., 691 F.3d 1152,1163-64 (9th Cir. 2012).
YouTube disclosed that it reviews flagged content
to determine whether it violates the Community
Guidelines, which in turn prohibit “Hateful content.”
YouTube’s monetization policies elaborate that “Hate­
ful content” is ineligible for monetization. Thus, Plain­
tiff’s fraud allegation fails to state a claim.
Lewis next asserted a claim for breach of implied
covenant of good faith and fair dealing. “[U]nder Cali­
fornia law, all contracts have an implied covenant of
good faith and fair dealing.” In re Vylene Enters., Inc.,
90 F.3d 1472, 1477 (9th Cir. 1996) (citation omitted).
Lewis alleged that his contract gave YouTube unilat­
eral discretion to remove, restrict, demonetize, or de­
mote his content. And YouTube’s terms and Guidelines
explicitly authorized YouTube to remove or demonetize
content on its platform that violated its policies, in­
cluding “Hateful content.” Thus, YouTube’s removal or
demonetization of Lewis’s videos, when YouTube deter­
mined them to violate the Guidelines, cannot support
a claim for breach of the implied covenant of good faith
and fair dealing. See Carma Devs. (Cal.), Inc. v. Mara­
thon Dev. Cal., Inc., 2 Cal. 4th 342,374 (1992) (en banc)
(“[I]f defendants were given the right to do what they
did by the express provisions of the contract there can
be no breachfj”) (internal quotation marks omitted).

App. 7
Finally, Lewis brought a state law claim of tortious
interference with prospective economic advantage. The
first element of a tortious interference claim requires
the existence of “an economic relationship between the
plaintiff and some third party, with the possibility of
future economic benefit to the plaintiff.” Korea Supply
Co. v. Lockheed Martin Corp., 29 Cal. 4th 1134, 1153
(2003). Lewis failed to allege, and the complaint cannot
be read to find, that he had an economic relationship
with a third party. And California law requires that
YouTube knew of the third-party economic relation­
ship. Id. But Lewis failed to show that YouTube was
aware of any third party. The district court properly
dismissed the claim.
The district court properly found Lewis lacked
standing to bring two claims, and we find after de novo
review that he failed to adequately plead the remain­
der.
AFFIRMED.

Lewis v. Google, Case No. 20-16073
Rawlinson, Circuit Judge, concurring:
I concur in the result.

App. 8
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 20-cv-00085-SK

BOB LEWIS,
Plaintiff,
v.
GOOGLE LLC, et al.,
Defendants.

ORDER ON MOTION
TO DISMISS
Regarding Docket
Nos. 23, 24, 27
(Filed May 20, 2020)

This matter comes before the Court upon consid­
eration of the motion to dismiss filed by Defendants
Google Inc. and YouTube, LLC (collectively, “Defend­
ants”). Having carefully considered the parties’ papers,
relevant legal authority, and the record in the case, the
Court hereby GRANTS Defendants’ motion for the rea­
sons set forth below. Also pending is a motion for a tem­
porary restraining order and preliminary injunction
and a motion for expedited discovery, both filed by
Plaintiff Bob Lewis. The Court DENIES Plaintiffs mo­
tions as MOOT.

BACKGROUND
Plaintiff “is a societal, cultural, and political com­
mentator who owns and operates the website located
at internet DNS address: MisandryToday.com, oper­
ates the YouTube Channel Misandry Today, and is the
author of The Feminist Lie, It Was Never About Equal­
ity.” (Dkt. No. 19 (Second Amended Complaint), % 16.)

App. 9
Plaintiff Bob Lewis posts content on YouTube and
brings this action to challenge Defendants’ treatment
of his posted content. (Id.) He alleges that Defendants
are censoring and demonetizing his videos because of
Defendants’ opposition to Plaintiffs Christian religious
affiliation, “national origin as a patriotic American cit­
izen who supports American tradition and culture,”
and for exercising his First Amendment rights. (Id.,
11.)
YouTube has a program which enables partici­
pants to receive a share of advertising revenue gener­
ated from advertisements posted on videos, which the
parties label as “monetization.” If YouTube determines
that certain content is not suitable for advertisement,
YouTube may restrict the advertisement, and that ac­
tion is referred to as “demonetization.”
A. State Actor Allegations.
Plaintiff alleges that Defendants are agents of and
are “joint enterprise state actors on behalf of the na­
tions of The Peoples Republic of China, the EU, and the
signatory governments of the Christchurch Call agree­
ment.” (Id., 1 2.) Defendants allegedly enforce Chinese,
EU, and Christchurch Call signatory government laws
within the United States by criminalizing “hate
speech” in violation of the United States Constitution.
(Id.)

App. 10
1. China.
Defendants, along with other technology leaders,
meet with the President of China in Seattle in Septem­
ber 2015. {Id., I 20.) Defendants have at least four of­
fices in China staffed witlh hundreds of employees and,
therefore, are required by the 2017 Chinese National
Intelligence Law to “function as a joint enterprise col­
laborator and agent of the Chinese government.” {Id.,
127.)
Until at least July 2019, Defendants worked on
developing a search engine called Project Dragonfly
for China that would be compatible with China’s
state sponsored censorship and intelligence activities.
{Id, M 28,30,31.)
2. European Union.
In 2012, Defendants created a “Trusted Flagger”
program. {Id., U 37.) On September 22, 2016, Defend­
ants made the following statement:
Back in 2012, we noticed that certain people
were particularly active in reporting Commu­
nity Guidelines violations with an extraordi­
narily high rate of accuracy. From this insight,
the Trusted Flagger program was born to pro­
vide more robust tools for people or organiza­
tions who are particularly interested in and
effective at notifying us of content that vio­
lates our Community Guidelines.

App. 11
As part of this program, Trusted Flaggers re­
ceive access to a tool that allows for reporting
multiple videos at the same time.
Our Trusted Flaggers’ results around flagging
content that violates our Community Guide­
lines speak for themselves: their reports are
accurate over 90% of the time. This is three
times more accurate than the average flagger.
{Id.) Ninety percent of the time a Trusted Flagger flags
a video for removal, that video is taken offline. {Id.)
One news outlet reported that British authorities are
among the Trusted Flaggers. The report stated that of
the 200 people and organizations included in the pool
of Trusted Flaggers, ten slots were filled by govern­
mental agencies. {Id., 38.)
Another news organization reported that Defend­
ants, along with Facebook, Twitter and Microsoft were
working with the European Union to fight hate speech.
{Id., 39.) Google’s public policy and government rela­
tions director made the following public statement:
“we have always prohibited illegal hate speech on our
platforms ... We are pleased to work with the Com­
mission to develop co-and self-regulatory approaches
to fighting hate speech online.” {Id.)
Defendants signed the European Union’s Code of
Conduct Agreement in which they committed to re­
moving illegal hate speech. {Id., 5 41.) Defendants are
abiding by the European Union’s Code of Conduct and
have been expanding the censorship of hate speech
into the United States. {Id., 45.)

App. 12
3. Christchurch Call Agreement.
A news organization reported that multiple gov­
ernments, including Britain, Canada, Australia, Jor­
dan, Senegal, Indonesia, Norway and Ireland, and big
technology companies, including Defendants, pledged
to tackle terrorist and extremist violence online in re­
sponse to the attack on the Christchurch mosque. (Id.,
•fl 52.) The United States refused to sign on due to free­
dom of speech concerns. (Id., 53.)
Defendants committed to sharing information
with other online service providers and foreign govern­
ments and notifying each other when they take down
online content they disagree with. (Id., 55.) Online
service providers, including Defendants, also agreed to
work with the signatory governments to shut down ac­
counts. (Id., 1 56.)
4. Google’s Interactions with the United
States Government.
Google won an exclusive, no-bid $27 million con­
tract to provide the National Geospatial-Intelligence
Agency with geospatial visualization services. (Id.,
I 196.)
Additionally, news organizations have reported
that the Pentagon, the Census Bureau, and intelli­
gence agencies are working with Google and other
large technology companies on the Pentagon’s artificial
intelligence and to fend off “fake news” and online dis­
information campaign: (Id., 1^1 197-199.)

App. 13
B. Defendants’ Conduct in the United States.
Defendants operate the largest publicly accessible
commercial website for people to purchase, rent, and
view videos, movies and television shows in the United
States. (Id., U 64.)
All registered users ofYouTube.com are required
to sign YouTube’s Terms of Service. (Id., 81.) You­
Tube’s Terms of Service require users to stipulate they
will not submit any conter or material contrary to
YouTube’s Guidelines, or contrary to local, national, or
international laws and regulations. (Id., 84.)
C. Defendants’ Conduct Towards Plaintiff.
Plaintiff joined YouTube as a registered user on
August 13, 2016. (Id., *]I 118.) Plaintiff created a chan­
nel called “Misandry Today” and online he used the
name of DDJ. (Id., 'll 119.) Plaintiff published his first
YouTube video, a commercial for his book The Feminist
Lie, It Was Never About Equality, on May 29, 2017.
(Id., 120.) Plaintiff published a video commentary
entitled, “The Social Media Constitutional Crisis” on
YouTube.com on October 28, 2017. (Id., I 121.) Plain­
tiff published a video commentary entitled, “The Fem­
inist & SJW Treason” on YouTube.com on November 3,
2017. (Id., ‘ft 122.) Plaintiff published a video commen­
tary entitled, “The Legal Controversies Surrounding
Social Media Companies” on YouTube on March 20,
2018. (Id., 1 123.)

/

App. 14
Starting on October 28, 2017, YouTube demone­
tized many of Plaintiff’s videos. {Id., 124.) Plaintiff
filed appeals with YouTube. He won many of his ap­
peals, but he lost 19. {Id., 124.) For the appeals he won,
YouTube did not compensate Plaintiff for the revenue
he lost from the demonetization. {Id.) YouTube also re­
stricted and removed some of Plaintiff’s videos. {Id.,
M 163,165-169.)
YouTube maintains at least one, and possibly
more, blacklists. {Id., 171.) Defendants also created
at least two programming frameworks which enable
Defendants to “shadow ban,” conceal, demote, or censor
videos and other online content. {Id., M 172,174.)
YouTube allows content creators to share adver­
tisement revenue in return for posting video content,
which is known as monetization and is part of Google’s
Adsense program. {Id., H 193.) Website owners can join
Google’s Adsense program and get paid for advertise­
ments on their websites. {Id., 194.) Google also runs
an auction which allows advertisers to bid on ad place­
ment. {Id., H 195.)

App. 15
D. YouTube’s Terms and Guidelines.1
To participate in YouTube’s partner program and
receive a share of advertising revenue generated from
advertisements posted on videos (“monetization”), par­
ticipants must agree to YouTube’s Partner Program
Terms. (Dkt. No. 28,1 4, Ex. A.). The Partner Program
Terms incorporate the YouTube’s Terms of Service and
YouTube’s Partner Program Policies (now referred to
as the ‘YouTube Monetization Policies”), which refer to
YouTube’s Advertiser-Friendly Content Guidelines.
{Id., IK 5, 8, 10, 11, Exs. A, C, D.) YouTube’s Terms of
Service incorporates YouTube’s Community Guide­
lines. {Id., 9, Ex. B.)
YouTube’s Partner Program Terms provide in rel­
evant part that ‘YouTube is not obligated to display
any advertisements alongside your videos and may
1 Courts may consider documents on a motion to dismiss
where “the complaint necessarily relies upon a document or the
contents of the document are alleged in a complaint, the docu­
ment’; authenticity is not in question and there are no disputed
issues as to the document’s relevance.” Coto Settlement u. Eisenberg, 593 F.3d 1031, 1038 (9th Cir. 2010). In his operative
complaint, Plaintiff repeatedly refers to his contracts with De­
fendants. (.See, e.g., Dkt. No. 19, M 13, 81-84 (referring to You­
Tube’s Terms of Service), f 234 (referring to YouTube’s Terms of
Service and community guidelines), % 245.) Plaintiff attached
YouTube’s Terms of Service as Exhibit S to his original complaint.
(Dkt. No. 1.) The Terms of Service states that YouTube’s Commu­
nity Guidelines are incorporated by reference. (Id.) In a declara­
tion in support of Defendants’ motion to dismiss, Jorge Blanco
Cano explains what contracts entities must agree to in order to
post on YouTube’s video-sharing website and to participate in
YouTube’s Partner Program to monetize posted videos. (Dkt. No.
28, ff 3-5.)

App. 16
determine the type and format of ad available on the
YouTube Service.” (Id., Ex. A, f 1.1.) YouTube’s Com­
munity Guidelines state:
If you think content is inappropriate, use the
flagging feature to submit it for review by our
YouTube staff. Our staff carefully reviews
flagged content 24 hours a day, 7 days a week
to determine whether there’s a violation of our
Community Guidelines.
CId., Ex. B at p.l.) The Community Guidelines then
lists several categories of prohibited material includ­
ing “Hateful content.” The “Hateful content” section
states:

:

Our products are platforms for free expres­
sion. But we don’t support content that pro­
motes or condones violence against individuals
or groups based on race or ethnic origin, re­
ligion, disability, gender, age, nationality,
veteran status, caste, sexual orientation, or
gender identity, or content that incites hatred
on the basis of these core characteristics.
(Id., Ex. B.) YouTube’s monetization policy provides, in
pertinent part:
If you’re in the YouTube Partner Program, it’s
important to follow the YouTube monetization
policies, which include YouTube’s Community
Guidelines, Terms of Service, and Google AdSense program policies. These policies apply
to anyone in the YouTube Partner Program. If
you want to monetize videos with ads, they

App. 17
must also meet our Advertiser-friendly con­
tent guidelines.
If you violate any of these policies, YouTube
may take some or all of the following actions:
•

Disabling ads from your content

•

Disabling your AdSense account

•

Suspending your participation in the
YouTube Partner Program

•

Suspending or even terminating your
YouTube channel

Content that violates YouTube’s Community
Guidelines is not eligible for monetization and
will be removed from YouTube. . . .
Content that violates YouTube’s Community
Guidelines includes:... Hateful content....
{Id., Ex. C.) YouTube’s Advertiser-friendly content
guidelines provides “examples of content not suitable
for ads, which will result in a ‘limited or no ads’ mon­
etization state!,]” as well as topics that are “not
advertiser-friendly!,]” such as: “Hateful content!,]”
“Incendiary and demeaning!,]” and “Controversial is­
sues and sensitive events!.]” {Id., Ex. D.) “Hateful con­
tent” is further defined as:
Content that incites hatred against, promotes
discrimination, disparages, or humiliates an
individual or group of people based on the fol­
lowing is not suitable for advertising:

I

App. 18
Race
Ethnicity or ethnic origin
Nationality
Religion
Disability
Age
Veteran status
Sexual orientation
Gender identity
Any other characteristic associated with
systemic discrimination or marginaliza­
tion
(Id.)
i

E. Plaintiff’s Claims.
1. 42 U.S.C. § 1983—First Amendment Viola­
tion.
Plaintiff alleges that Defendants are state actors
based on their relationship with China, the European
Union, and the signatory countries of the Christchurch
Call Agreement. (Id., H 208.) Defendants enforce the
hate speech and other censorship laws of these coun­
tries within the Unitec States, including against Plain­
tiff. (Id., *11 212.) Plaintiff further alleges that even if
Defendants are not agents of a foreign government,

App. 19
they are pervasively intertwined with the United
States government. (Id., f[ 217.)
2. National Origin Discrimination Under
42 U.S.C. § 2000a.
Plaintiff alleges that Defendants are an online
theater and/or place of public exhibition or entertain­
ment under 42 U.S.C. § 2000a. (Id., <jl 221.)
YouTube allegedly discriminated against Plaintiff
on the basis of his national origin when YouTube de­
monetized many of his videos and then his entire chan­
nel, restricted, and removed hi videos because he “is a
patriotic American citizen who promotes Constitu­
tional rights ofAmericans, Christian beliefs and Amer­
ican laws and culture. (Id., 225.)
3. 47 U.S.C. § 230 Claims.
Under his third claim, Plaintiff alleges that that
the Communications Decency Act, 47 U.S.C.§ 230 is
unconstitutional because it allows Defendants to cen­
sor without liability and because the statute is vague,
overbroad, and internally inconsistent. (Id., M 94, 95,
229-31.) In his eighth claim, Plaintiff brings a claim to
challenge Defendants’ ability to assert 47 U.S.C. § 230
as a defense, asserting that Defendants do not meet
the good faith requirements of the statute. (Id., U 263.)

App. 20
i,

4. Lanham Act.
Plaintiff alleges that YouTube “markets itself as
website that promotes free speech and freedom of ex­
pression free from censorship” and points to the follow­
ing statement from YouTube on its website:
Our Mission is to give everyone a voice and
show them the world. We believe that every­
one deserves to have a voice, and that the
world is a better place when we listen, share
and build community through our stories.
Our values are based on four essential free­
doms that define who we are.
Freedom of Expression:
We believe people should be able to speak
freely, share opinions, foster open dialogue,
and that creative freedom leads to new voices,
formats, and possibilities.
Freedom of Information
We believe everyone should have easy, open
access to information and that video is a pow­
erful force for education, building understand­
ing, and documenting world events, big and
small.
Freedom of Opportunity:
We believe everyone should have a chance to
be discovered, build a business and succeed on
their own terms, and that people-not gatekeepers-decide what’s popular.
Freedom to Belong:
We believe everyone should be able to find
communities of support, breakdown barriers,

App. 21
transcend borders and come together around
shared interests.
(Id., ‘Jl 65.) Plaintiff alleges that Defendants falsely ad­
vertise as a forum for open and intellectually diverse
expression and misrepresent the nature of its services
“as an equal, open and diverse public forum committed
to American style free speech.” (Id., H 259.)
Plaintiff alleges that he has been harmed by lower
and diverted viewership, decreased and lost ad reve­
nue, a reduction in advertisers, and damage to his
brand, reputation and goodwill. (Id., 260.)
5. Declaratory Relief Claim.
Plaintiff also seeks declaratory relief on all of his
federal claims. (Id., 1 270.)
6. State-Law Claims,
i. Fraud.
Plaintiff alleges that Defendants publicly presents
YouTube as a free speech platform, free from unlawful
censorship. (Dkt. No. 19, f 233.) Defendants do not dis­
close the identity of their trusted flaggers, including
that they use foreign governmental entities or agencies
as flaggers. (Id., 234.) Defendants also fail to disclose
that American registered users could be censored or
demonetized if a foreign government objects to it. (Id.,
M 235, 236.)

App. 22
Plaintiff further alleges that Defendants failed to
disclose they: (1) adopted a “more censored European/
Chinese ideological perspective” over “American Con­
stitutional style free speech,” (2) maintained blacklists
of words, websites, users, and/or other material and
content, an (3) used algorithm censorship and black­
lists, such as Twiddler, Adscorer and other internal
tools, it artificially promoted and demoted websites,
YouTube channels, and other online material. (Id.,
M 237, 239.)
Plaintiff alleges that he relied on these misrepre­
sentations and/or omissions and was damaged by the
demonetization of his channel and censorship of his
videos. (Id., ft 243.)
ii. Breach of Implied Covenant of Good
Faith and Fair Dealing.
Plaintiff alleges that he entered into contracts
with Defendants for their services and that the con­
tracts give Defendants unilateral discretion to remove,
restrict, demonetize or demote his content. (Id., H 245.)
The contracts also allow Defendants to change the
terms at any time without notice. (Id.)
Plaintiff further alleges none of his demonetized
or restricted videos violated the letter or spirit of their
contracts. (Id., ^1 247.) Plaintiff contends that, pursu­
ant to the contracts, he was entitled to a wide audience
and to some portion of the ad revenue profits that De­
fendants earned from hosting Plaintiff’s content. (Id.,
K 248.) Defendants breached the covenant of good faith

App. 23
and fair dealing by unfairly and unlawfully interfering
with his rights to receive the benefits of the contracts.
(Id.)
iii. Tortious Interference with Economic
Advantage.
Plaintiff alleges that Defendants discriminates,
demonetizes, and/or otherwise censors him “as part of
an ongoing pattern and practice to silence American
citizens on behalf of foreign government trust flaggers
and/or other agents.” (Id., U 265.) Defendants inten­
tionally and maliciously interfered with Plaintiff’s
business interests by censoring and demonetizing him
on their websites and platforms. (Id., 267.)
ANALYSIS
A. Applicable Legal Standard on Motion to
Dismiss.
A motion to dismiss is proper under Federal Rule
of Civil Procedure 12(b)(6) where the pleadings fail to
state a claim upon which relief can be granted. On a
motion to dismiss under Rule 12(b)(6), the Court con­
strues the allegations in the complaint in the light
most favorable to the non-moving party and takes as
true all material allegations in the complaint. Sanders
v. Kennedy, 794 F.2d 478, 481 (9th Cir. 1986). Even
under the liberal pleading standard of Rule 8(a)(2), “a
plaintiff’s obligation to provide the ‘grounds’ of his ‘en­
title [ment] to relief requires more than labels and con­
clusions, and a formulaic recitation of the elements of

App. 24
a cause of action will not do.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (citing Papasan v.
Attain, 478 U.S. 265, 286 (1986)). Rather, a plaintiff
must instead allege “enough facts to state a claim to
relief that is plausible on its face.” Id. at 570.
“The plausibility standard is not akin to a proba­
bility requirement, but it asks for more than a sheer
possibility that a defendant has acted unlawfully....
When a complaint pleads facts that are merely con­
sistent with a defendant’s liability, it stops short of the
line between possibility and plausibility of entitlement
to relief.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Twombly, 550 U.S. at 557) (internal quotation
marks omitted). If the allegations are insufficient to
state a claim, a court should grant leave to amend, un­
less amendment would be futile. See, e.g. Reddy v. Lit­
ton Indus., Inc., 912 F.2d 291,296 (9th Cir. 1990); Cook,
Perkiss & Liehe, Inc. v. N. Cal. Collection Serv., Inc., 911
F.2d 242, 246-47 (9th Cir. 1990).
As a general rule, “a district court may not con­
sider material beyond the pleadings in ruling on a Rule
12(b)(6) motion.” Branch v. Tunnell, 14 F.3d 449, 453
(9th Cir. 1994), overruled on other grounds, Galbraith
v. Cnty. of Santa Clara, 307 F.3d 1119 (9th Cir. 2002)
(citation omitted: However, documents subject to judi­
cial notice, such as matters of public record, may be
considered on a motion to dismiss. See Harris v. Cnty
of Orange, 682 F.3d 1126,1132 (9th Cir. 2011). In doing
so, the Court does not convert a motion to dismiss to
one for summary judgment. See Mack v. S. Bay Beer
Distrib., 798 F.2d 1279,1282 (9th Cir. 1986), overruled

App. 25
on other ground by Astoria Fed. Sav. & Loan Ass’n v.
Solimino, 501 U.S. 104 (1991). The district court may
also consider documents attached to and/or incorpo­
rated by reference in the complaint without converting
the motion to dismiss into a motion for summary judg­
ment. United States v. Ritchie, 342 F.3d 903, 908 (9th
Cir. 2003). “The court need not... accept as true alle­
gations that contradict matters properly subject to ju­
dicial notice. . . .” Sprewell v. Golden State Warriors,
266 F. 3d 979, 988 (9th Cir. 2001).
B. Defendants’ Motion to Dismiss.
Defendants move to dismiss all of Plaintiffs
claims, except for his third and eighth claims, on the
grounds that § 230 of the Communications Decency
Act (the “CDA”) immunizes them from Plaintiff’s
claims.3
1. Plaintiff’s Third and Eighth Claims Re­
garding the CDA.
In anticipation of Defendants’ defenses, Plaintiff
brings two claims challenging the CDA—Plaintiff s
third claim alleging § 230 of the CDA is unconstitu­
tional and Plaintiff’s eighth claim alleging Defendants
do not meet the “good faith” requirement of § 230(c)(2).
Defendants argue that Plaintiff lacks standing to bring
3 In his opposition brief, Plaintiff concedes that he cannot
state an affirmative claim that Defendants’ terms and conditions
are unconscionable. Therefore, the Court grants Defendants’ mo­
tion as to Plaintiff’s sixth claim as unopposed.

App. 26
both of these claims because the CDA is a statute that
which merely provides Defendants with a defense to li­
ability.
Standing is a constitutional requirement of all
federal courts, requiring plaintiffs to “demonstrate a
personal stake in the outcome” in order to establish ju­
risdiction. City ofLos Angeles v. Lyons, 461 U.S. 95,101
(1983) (citing Baker v. Carr, 369 U.S. 186, 204 (1962)).
Where a plaintiff lacks standing, a federal court “lacks
subject matter jurisdiction over the suit.” Cetacean
Cmty. v. Bush, 386 F.3d 1169, 1174 (9th Cir. 2004). To
satisfy the Constitution’s standing requirements, a
plaintiff must show (1) he has suffered an “injury in
fact” that is (a) concrete and particularized and (b) ac­
tual or imminent, not conjectural or hypothetical; (2)
the injury must be fairly traceable to the challenged
action of the defendant; and (3) it must be likely, as op­
posed to merely speculative, that the injury will be re­
dressed by a favorable decision. Lujan u. Defenders of
Wildlife, 504 U.S. 555, 560-61 (1992). “[A] plaintiff
must demonstrate standing for each claim he seeks
to press and for each form of relief that is sought.”
Town of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct.
1645, 1650 (2017) (quoting David v. Federal Election
Comm’n, 554 U.S. 724, 734 (2008)).
Here, Plaintiff has not alleged any facts to show
he has suffered an injury in fact. Plaintiffs asserted
injury depends upon his valid claim and Defendants’
assertion of a defense provided by 47 U.S.C. § 230.
Plaintiff will not suffer an injury unless and until
Plaintiff pleads a valid claim, which, as discussed in

App. 27
this Order, he has not done, and until Defendants assert a defense to liability provided by 47 U.S.C. § 230.
Therefore, the Court finds that Plaintiff lacks standing
to bring his third and eighth claims challenging 47
U.S.C. § 230 and grants Defendants’ motion on this
ground.
2. Defendants’ Ability to Assert Section 230
as a Defense to Liability.
Although Plaintiff cannot bring an independent
claim to challenge the constitutionality of Section 230
of the CDA, the Court will address Plaintiff’s argu­
ment raised in his third claim because Defendants as­
sert this statute as a ground for dismissing Plaintiffs
claims. Plaintiff argues that Section 230 violates the
First Amendment because it restricts his speech. (Dkt.
No. 32 (Plaintiff’s Opp.) at 15.) In his SAC, Plaintiff
alleges that § 230 is unconstitutional “because the
statute doesn’t define any of the terms included under
§[230] (c)(2)(A), such as: Tiarassing, obscene, lewd, las­
civious, filthy, excessively violent, objectionable.’ ” (Dkt.
No. 19, f 229.) It appears as though Plaintiff contends
that § 230(c)(2) is unconstitutional. However, as dis­
cussed below, the Court fords that Plaintiffs claims
are barred based on § 230(c)(1), not subdivision (c)(2).
Moreover, to the extent Plaintiff argues that subdivi­
sion (c)(1) violates the First Amendment, it is not clear
how. Section 230(c)(1) provides: “No provider or user of
an interactive computer service shall be treated as the
publisher or speaker of any information provided by
another information content provider.” 47 U.S.C.A.

App. 28
§ 230(c)(1). This provision does not ban or restrict any
speech. Cf. Green v. Am. Online (AOL), 318 F.3d 465,
472 (3d Cir. 2003) (rejecting claim that Section 230(c)(2)
contravenes the First Amendment because it merely
immunizes internet service providers of internet from
liability: “Section 230(c)(2) does not require AOL to re­
strict speech; rather it allows AOL to establish stand­
ards of decency without risking liability for doing so.”)
(emphasis in original).
Plaintiff’s other argument regarding the CDA in
his eighth claim also applies only to subdivision (c)(2).
Plaintiff alleges that Defendants have not meet the
“good faith” requirement under the statute (Dkt. No.
19, f 263), but only subdivision (c)(2), not subdivision
(c)(1), requires any “good faith.”3 Therefore, Plaintiff
has not shown that that Defendants are precluded
from raising § 230(c)(1) as a defense to Plaintiffs claims.
3. The CDA Bars Plaintiff’s Remaining
Claims.
Section 230 of the CDA “immunizes providers of
interactive computer services against liability arising
from content created by third parties.” Fair Hous.
Council of San Fernando Valley v. Roommates.com,
3 Subdivision (c)(2) provides: “No provider or user of an in­
teractive computer service shall be held liable on account of. . .
any action voluntarily taken in good faith to restrict access to or
availability of material that the provider or user considers to be
obscene, lewd, lascivious, filthy, excessively violent, harassing, or
otherwise objectionable, whether or not such material is constitu­
tionally protected!.]” 47 U.S.C.A. § 230(c)(2).

App. 29
LLC, 521 F.3d 1157, 1162 (9th Cir. 2008) (en banc).
"Any activity that can be boiled down to deciding
whether to exclude material that third parties seek
to post online is perforce immune under section 230.”
Id. at 1170-71. Immunity under Section 230 “pro­
tect [s] websites not merely from ultimate liability, but
[also] from having to fight costly and protracted legal
battles.” Id. at 1175. “[C]ourts have treated § 230(c)
immunity as quite robust, adopting a relatively expan­
sive definition of ‘interactive computer service’ and a
relatively restrictive definition of ‘information content
provider.’” Carafano v. Metrosplash, 339 F.3d 1119
1123 (9th Cir. 2003); Jane Doe No. 1 v. Backpage.com,
LLC, 817 F.3d 12, 18 (1st Cir. 2016) (“There has been
near-universal agreement that section 230 should not
be construed grudgingly.”) “[C]lose cases . . . must be
resolved in favor of immunity.” Roommates.Com, 521
F.3d at 1174. “When a plaintiff cannot allege enough
facts to overcome Section 230 immunity, a plaintiff’s
claims should be dismissed.” See Dyroff v. Ultimate
Software Grp., Inc., 934 F.3d 1093,1097 (9th Cir. 2019).
“Section 230 immunity extends to causes of action un­
der both state and federal law.” Fed. Agency of News
LLC v. Facebook, Inc.,
F. Supp. 3d__ , 2020 WL
137154, at *5 (N.D. Cal. Jan. 13, 2020) (citing Room­
mates, 521 F.3d at 1164,1169 n. 24).
Subsection (c)(1) of the CDA protects from liability
(1) a provider or user of an interactive computer ser­
vice (2) whom a plaintiff seeks to treat as a publisher
or speaker (3) of information provided by another

)

App. 30
information content provider. Barnes v. Yahoo!, Inc.,
570 F.3d 1096,110001 (9th Cir. 2009).
i. Interactive Computer Service.
An “interactive computer service” is defined under
the CDA as “any information service, system, or access
software provider that provides or enables computer
access by multiple users to a computer server, includ­
ing specifically a service or system that provides access
to the Internet and such systems operated or services
offered by libraries or educational institutions.” 47
U.S.C. § 230(f)(2). There does not appear to be any dis­
pute that YouTube and Google are providers of an in­
teractive computer service. See Bennett v. Google, LLC,
882 F.3d 1163, 1167 (D.C. Cir. 2018) (“as many other
courts have found, Google qualifies as an ‘interactive
computer service’ provider because it ‘provides or en­
ables computer access by multiple users to a com­
puter server.’”); see also Black v. Google Inc., 2010 WL
3222147, at *2 (N.D. Cal. Aug. 13,2010) (finding Google
immune under § 230), aff’d by 457 Fed. Appx. 622 (9th
Cir. 2011); Gonzalez v. Google, Inc., 282 F. Supp. 3d
1150, 1163 (N.D. Cal. 2017) (holding Google was an
interactive computer service provider and dismissing
claims based on YouTube postings); Lancaster v. Alpha­
bet Inc., 2016 WL 3648608, at *3 (N.D. Cal. July 8,
2016) (“The Court finds . . . that YouTube and Google
are ‘interactive computer services.”).

App. 31
ii. Treating Defendants as a Publisher
or Speaker.
In his claims, Plaintiff charges Defendants with
wrongfully demonetizing, censoring, restricting and re­
moving his videos. The Ninth Circuit has made clear
that removing or restricting postings falls within a
publisher’s traditional functions. Barnes, 570 F.3d at
1101 (citing Zeran v. Amer. Online, Inc., 129 F.3d 327,
330 (4th Cir. 1997)) (listing “deciding whether to pub­
lish, withdraw, postpone or alter content” as examples
of “a publisher’s traditional editorial functions”)); see
also Ebeid v. Facebook, Inc., 2019 WL 2059662, at *5
(N.D. Cal. May 9, 2019) (“defendant’s decision to re­
move plaintiff’s posts undoubtedly falls under ‘pub­
lisher’ conduct”). “Subsection (c)(1), by itself, shields
from liability all publication decisions, whether to edit,
to remove, or to post, with respect to content generated
entirely by third parties.” Barnes, 570 F.3d at 1105; see
also Roommates.Com, 521 F.3d at 1171 (“any activity
that can be boiled down to deciding whether to exclude
material that third parties seek to post online is per­
force immune under section 230.”).
Defendants argue and the Court agrees that their
alleged demonetization of Plaintiff’s postings also con­
stitutes a publishing function under § 230. Courts
have broadly interpreted what it means to be acting as
a publisher under the CDA. Jane Doe No. 1 v. Backpage.com, LLC, 817 F.3d 12, 19 (1st Cir. 2016) (“The
broad construction accorded to section 230 as a whole
has resulted in a capacious conception of what it
means to treat a website operator as the publisher or

App. 32
speaker of information provided by a third party.”). In
Backpage.com, the First Circuit held that choices that
the defendant made about the posting standards for
advertisements, such as rules for what terms were al­
lowed in postings and the acceptance of anonymous
payments, fell within publisher functions. Id. at 20; see
also id. at 21 (“Features such as these, which reflect
choices about what content can appear on the website
and in what form, are editorial choices that fall within
the purview of traditional publisher functions.”); cf.
Stewart v. Rolling Stone LLC, 181 Cal App. 4th 664,
691 (2010) (First Amendment protections for newspa­
pers as publishers has been extended to the content
and placement of advertisements). Deciding whether
to limit advertising on a posting is not different in na­
ture from removing a post altogether. Both fall under
the rubric of publishing activities. See Barnes, 570 F.3d
at 1102 (“publication involves reviewing, editing, and
deciding whether to publish or to withdraw from pub­
lication third-party content”). Thus, the Court finds
that Plaintiff treats Defendants as a publisher in his
allegations.
iii. Provided by Another Information
Content Provider.
Plaintiff’s videos, and the advertisements from
other third parties, constitute “information provided
by another information content provider” under § 230.
Riggs v. MySpace, Inc., 444 F. App’x 986, 987 (9th Cir.
2011) (defendant’s decision to delete plaintiffs pro­
file from its social networking site was precluded by

App. 33
section 230(c)(1) of the CDA) (citing Roommates.Com,
521 F.3d at 1170-71) (“[A]ny activity that can be
boiled down to deciding whether to exclude material
that third parties seek to post online is perforce im­
mune under section 230.”)); see also Ebeid v. Facebook,
Inc., 2019 WL 2059662, at *5 (N.D. Cal. May 9, 2019)
(rejected argument that posts were not “information
provided by another information content provider” be­
cause plaintiff himself—not some other third-party—
provided the information and applied (c)(1) immunity
to Facebook’s decision to remove plaintiffs posts); Lan­
caster, 2016 WL 3648608, at *3 (applied (c)(1) immun­
ity to YouTube’s decision to remove plaintiffs videos
from its site). As the court explained in Ebeid, “infor­
mation provided by another information content pro­
vider” applies to an: content that is “created entirely by
individuals or entities other than the interactive com­
puter service provider.”Ebeid, 2019 WL 2059662, at *4.
Because the Court finds that Defendants provide
an interactive computer service and that Plaintiff,
through his first, second, fourth, fifth, seventh, ninth,
and tenth claims, is seeking to hold Defendants liable
as a publisher of information provided by another con­
tent provider, § 230(c)(1) bars these claims.
4. Failure to State Claims.
Additionally, the Court finds that Plaintiff’s
claims independently should be dismissed because he
fails to allege sufficient facts to state his claims.

App. 34
i. Plaintiff’s Section 1983 Claim Prem­
ised on the First Amendment.
Plaintiffs first claim is under 42 U.S.C. § 1983 for
alleged violations of the First Amendment. To state a
claim under Section 1983, a plaintiff must plead: “(1) a
violation of right; protected by the Constitution or cre­
ated by federal statute, (2) proximately caused (3) by
conduct of a ‘person’ (4) acting under color of state law.”
Crampton v. Gates, 947 F.2d 1418,1420 (9th Cir. 1991).
Here, Plaintiff is only suing private entities. See Prager
, 2020 WL 913661, *2,
Univ. v. Google LLC,__ F.3d
3 (9th Cir. Feb. 26, 2020) (“YouTube is a private en­
tity. ... “[I]t is not transformed into a state actor solely
by providing a forum for speech”) (internal brackets,
quotation marks and citation omitted). Plaintiff does
not dispute that “normally private parties cannot be
held as state actors.” (Dkt. No. 32 at 4.) Instead, Plain­
tiff seeks to hold Defendants liable as “state” actors by
connecting them to alleged conduct by the United
States government and by foreign governments. How­
ever, even if Plaintiff’s allegations were sufficient to
hold Plaintiffs liable for conduct by the federal and by
foreign governments, such allegations do not allege
conduct under color of state law.
A defendant acts “under color of state law” where
he, she, or it “exercised power possessed by virtue of
state law and made possible only because the wrong­
doer is clothed with the authority of state law.” West
v. Atkins, 487 U.S. 42, 49 (1988) (emphasis added).
“[F]ederal officials who violate federal rights protected
by § 1983 generally do not act under ‘color of state

App. 35
lawr Kali v. Bowen, 854 F.2d 329, 331 (9th Cir. 1988)
(citation omitted) (where plaintiffs did not allege that
federal and state officials conspired, federal officials’
actions could not be deemed to have been under “color
of state law”); see also Cabrera v. Martin, 973 F.2d 735,
742 (9th Cir. 1992) (“[f]ederal officials acting under
federal authority are generally not considered to be
state actors, [but] they may be liable under § 1983 if
they are found to have conspired with or acted in con­
cert with state officials to some substantial degree.”).
Similarly, acts by a foreign government and its officials
“cannot constitute conduct under color of state law” un­
der Section 1983.Kimbell v. Benner, 2018 WL 1135389,
at *3 (C.D. Cal. Feb. 26, 2018) (citing Gerritsen v. de la
Madrid Hurtado, 819 F.2d 1511, 1515 (9th Cir. 1987));
cf. Ohno v. Yasuma, 723 F.3d 984, 995 (9th Cir. 2013)
(“state actor’ means an actor for whom a domestic gov­
ernmental entity is in some sense responsible”). Ac­
cordingly, Plaintiff fails to state a claim under Section
1983 premised on the First Amendment.
ii. Plaintiff’s Claim of Discrimination
under Title II of the Civil Rights Act.
Under Title II if the Civil Rights Act “[a]ll persons
shall be entitled to the full and equal enjoyment of the
goods, services, facilities, privileges, advantages, and
accommodations of any place of public accommoda­
tion . . . without discrimination or segregation on the
ground of race, color, religion, or national origin.” 42
U.S.C. § 2000a. Defendants argue that Plaintiff’s Ti­
tle II claim fails on the following three separate,

I

App. 36
independent grounds: (1) YouTube is not a place of
public accommodation; (2) Plaintiff does not suffi­
ciently allege facts to show intentional discrimination;
and (3) Plaintiff failed to provide written notice. Be­
cause the Court finds that YouTube is not a place of
public accommodation under the statute, Plaintiff’s Ti­
tle II claim fails, and the Court need not address De­
fendants’ other grounds.
The statute defines “place of public accommoda­
tion” to mean:
(1) any inn, hotel, motel, or other establish­
ment which provides lodging to transient
guests ...;
(2) any restaurant, cafeteria, lunchroom,
lunch counter, soda fountain, or other facility
principally engaged in selling food for con­
sumption on the premises ...;
(3) any motion picture house, theater, con­
cert hall, sports arena, stadium or other place
of exhibition or entertainment; and
(4) any establishment (A)(i) which is phys­
ically located within the premises of any
establishment otherwise covered by this sub­
section, or (ii) within the premises of which is
physically located any such covered establish­
ment, and (B) which holds itself out as serving
patrons of such covered establishment.
42 U.S.C.A. § 2000a(b).
Title II of the Civil Rights Act “covers only places,
lodgings, facilities and establishments.” Clegg v. Cult

App. 37
Awareness Network, 18 F.3d 752, 756 (9th Cir. 1994)
(holding that a national organization was not suffi­
ciently connected to a “place” open to the public). Con­
struing the statutory language, the Ninth Circuit
noted “[n]owhere does the statute ... indicate congres­
sional intent to regulate anything other than public fa­
cilities.” Id. at 755. The court further found:
Congress’ intent in enacting Title II was to
provide a remedy only for discrimination oc­
curring in facilities or establishments serving
the public: to conclude otherwise would obfus­
cate the term “place” and render nugatory the
examples Congress provides to illuminate the
meaning of that term.
Id.; see also Noah u. AOL Time Warner, Inc., 261
F. Supp. 2d 532, 541 (E.D. Va. 2003) (“as the relevant
case law and an examination the statute’s exhaustive
definition make clear, ‘places of public accommodation’
are limited to actual, physical places and structures,
and thus cannot include chat rooms, which are not ac­
tual physical facilities but instead are virtual forums
for communication”), aff’d sub nom. Noah v. AOL-Time
Warner, Inc., 2004 WL 602711 (4th Cir. Mar. 24, 2004));
Ebeid v. Facebook, Inc., 2019 WL 2059662, at *6 (N.D.
Cal. May 9, 2019) (finding services provided by Facebook’s online platform were “unconnected to entry into
a public place or facility and therefore the plain lan­
guage of Title II [made] the statute inapplicable”) (cit­
ing Clegg, 18 F.3d at 756).
Plaintiff’s reliance on cases interpreting the
American’s with Disabilities Act is misplaced. The

f

App. 38
ADA is different statute with different statutory lan­
guage that defines places of public accommodation.
See, e.g., Ramirez v. Petrillo, 2012 WL 12887630, at *2
(D. Or. Sept. 19, 2012) (noting the important differ­
ences between the ADA and the Civil Rights Act, in­
cluding that “the ADA has a more expansive definition
of ‘place of public accommodation,’ than the Civil
Rights Act) (internal quotation marks and citation
omitted). “The ADA’s more expansive definition of
‘place of public accommodation’ is not transferable to
the Civil Rights Act: The Civil Rights Act expressly
limits its scope to places of public accommodation “as
defined in this section.” Id.
Additionally, the Court notes that Ninth Circuit
case upon which Plaintiff relies, Robles v. Domino’s
Pizza, LLC, expressly relies on the nexus between the
company’s website and its physical restaurants to find
that the plaintiff could state a claim under the ADA:
The alleged inaccessibility of Domino’s web­
site and app impedes access to the goods and
services of its physical pizza franchise—which
are places of public accommodation.... Cus­
tomers use the website and app to locate a
nearby Domino’s restaurant and order pizzas
for at-home delivery or in-store pickup. This
nexus between Domino’s website and app and
physical restaurants—which Domino’s does
not contest—is critical to our analysis.
913 F.3d 898, 905 (9th Cir. 2019).

i

App. 39
Because Title II of the Civil Rights Act applies
only to physical facilities, the Court grants the motion
to dismiss as to this claim.
iii. Lanham Act.
To state a claim under the Lanham act for false
advertising under 15 U.S.C. § 1125(a)(1)(B), Plaintiff
must allege: “a ‘false or misleading representation of
fact’ in commercial advertising or promotion’ that ‘mis­
represents the nature, characteristics, qualities, or ge­
ographic origin of his or her or another person’s goods,
services, or commercial activities.’” Prager Univ. v.
Google LLC, 951 F.3d 991, 999 (9th Cir. Feb. 26, 2020)
(quoting Southland Sod Farms v. Stover Seed Co., 108
F.3d 1134,1139 & n. 2 (9th Cir. 1997)).
Defendants make two arguments against Plain­
tiff’s claim under the Lanham Act. First, they argue
that Plaintiff lacks standing because he complains of
a harm he incurred as a consumer from his use of
YouTube, not as a competitor. Second, Defendants ar­
gue that the statements Plaintiff alleges as misrepre­
sentations are non-actionable “puffery.”
a. Whether Plaintiff Alleges an Ac­
tionable Injury.
A plaintiff has a cause of action under a statute
only if his or her interests “fall within the zone of
interests protected by the law.” Lexmark Int% Inc.
v. Static Control Components, Inc., 572 U.S. 118, 129

App. 40
(2014) (internal quotation marks and citation omitted).
“[T]to come within the zone of interests in a suit for
false advertising under § 1125(a), a plaintiff must al­
lege an injury to a commercial interest in reputation
or sales.” Id. at 131-32. A consumer cannot bring a
claim under the Lanham Act. Id. at 132. Additionally,
a plaintiff must show proximate causation. “[T]hus . . .
a plaintiff suing under § 1125(a) ordinarily must show
economic or reputational injury flowing directly from
the deception wrought by the defendant’s advertising;
and that that occurs when deception of consumers
causes them to withhold trade from the plaintiff.” Id.
at 133.
Plaintiff argues in opposition to the motion that he
is both a consumer of, and a competitor with, Defend­
ants because YouTube also creates and publishes vid­
eos. However, Plaintiff does not actually allege that he
competes with YouTube. Moreover, even if Plaintiff did
or could allege that he is a competitor with YouTube,
the harm of which he complains stems from his rela­
tionship with YouTube as a consumer. The statements
Plaintiff alleges which caused him harm relate to the
type of forum Defendants provide, not the videos or
content they create. (Dkt. No. 19, f 65 (alleging You­
Tube “markets itself as website that promotes free
speech and freedom of expression free from censor­
ship”), 1 259 (alleging Defendants “advertise them­
selves ... as a forum for open and intellectually
diverse expression” and advertise their services “as an
equal, open and diverse public forum committed to
American style free speech”).)

App. 41
Plaintiff alleges he has been injured by lower and
diverted viewership, decreased and lost ad revenue, a
reduction in advertisers, and damage to his brand, rep­
utation and goodwill. (Id,., f[ 260.) It is not clear how
Defendants’ statements about hosting an open forum,
as opposed to YouTube’s censorship or demonetization
of his videos, caused Plaintiff any reputational harm.
Even if Plaintiff could allege facts to show that De­
fendants’ statements about the openness of its forum
caused Plaintiff some loss to his commercial interest or
reputational harm, the harm occurred by YouTube’s
enforcement of its policies to those who post on its web­
site. In other words, it is a harm Plaintiff incurred by
interacting with YouTube as a consumer, not as a com­
petitor. Therefore, Plaintiff lacks standing to bring a
claim under the Lanham Act.
b. Whether Plaintiff Alleges an Ac­
tionable Statement.
Additionally, Defendants argue that Plaintiff’s
claim fails for the independent reason that Plaintiffs
alleged statements are mere “puffery.” Statements are
“considered puffery if the claim is extremely unlikely
to induce consumer reliance. Newcal Indus., Inc. v. Ikon
Office Sol., 513 F.3d 1038,1053 (9th Cir. 2008); see also
Coastal Abstract Serv. Inc. v. First Am. Title Ins. Co.,
173 F.3d 725, 731 (9th Cir. 1999) (statements that are
so vague they are not “capable of being proved false”
are non-actionable). “Ultimately, the difference be­
tween a statement of fact and mere puffery rests in the
specificity or generality of the claim.” Newcal Indus.,

I

App. 42

i

513 F.3d at 1053. A statement that is “quantifiable,
that makes a claim as to the ‘specific or absolute char­
acteristics of a product/ may be an actionable state­
ment of fact while a general subjective claim about a
product is non-actionable puffery.” Id. (quoting Cook,
911 F.2d at 246).
In Prager University, the Ninth Circuit held that
a claim against YouTube failed because the plaintiff’s
alleged statements, including that “everyone deserves
to have a voice” and “people should be able to speak
freely ...” as Plaintiff also alleges here,4 were not
4 Plaintiff alleges that Defendants made the following state­
ment:
Our Mission is to give everyone a voice and show them
the world. We believe that everyone deserves to have a
voice, and that the world is a better place when we lis­
ten, share and build community through our stories.
Our values are based on four essential freedoms that
define who we are.
Freedom of Expression:
We believe people should be able to speak freely, share
opinions, foster open dialogue, and that creative free­
dom leads to new voices, formats, and possibilities.
Freedom of Information
We believe everyone should have easy, open access to
information and that video is a powerful force for edu­
cation, building understanding, and documenting
world events, big and small.
Freedom of Opportunity:
We believe everyone should have a chance to be dis­
covered, build a business and succeed on their own
terms, and that people-not gatekeepers-decide what’s
popular.

App. 43
actionable under the Lanham Act. Prager University,
951 F.3d at 1000. The Ninth Circuit explained that:
YouTube’s braggadocio about its commitment
to free speech constitutes opinions that are
not subject to the Lanham Act. Lofty but
vague statements like “everyone deserves to
have a voice, and that the world is a better
place when we listen, share and build commu­
nity through our stories” or that YouTube be­
lieves that “people should be able to speak
freely, share opinions, foster open dialogue,
and that creative freedom leads to new voices,
formats and possibilities” are classic, non-actionable opinions or puffery.
Id. (citing Newcal Indus., Inc. v. Ikon Office Sol., 513
F.3d 1038,1053 (9th Cir. 2008)). Defendants’ statement
about providing a voice and freedom of expression is
the only statement Plaintiff alleges. To the extent
Plaintiff includes a larger excerpt of Defendants’ state­
ment, including opinions on the freedom of infor­
mation, of opportunity, and to belong, it is of a similar
“[l]ofty but vague” nature, and thus, are similarly nonactionable opinions. Prager University, 951 F.3d at
1000.
Plaintiff also generally alleges that Defendants
falsely advertise as a forum for open and intellectually
Freedom to Belong:
We believe everyone should be able to find communities
of support, breakdown barriers, transcend borders and
come together around shared interests.
(Dkt. No. 19, f 65.)

App. 44
diverse expression and falsely advertise their services
“as an equal, open and diverse public forum committed
to American style free speech.” (Id., 1 259.) It is not
clear if Plaintiff is drawing that conclusion from the
statement it quotes in paragraph 65 of its operative
complaint, or if he is relying on additional statements.
To the extent Plaintiff is merely drawing that conclu­
sion from the statements quoted in paragraph 65, as
stated above, the Ninth Circuit held that these state­
ments are non-actionable puffery. To the extent Plain­
tiff is drawing this conclusion from other statements,
Plaintiff’s claim fails for not identifying the specific
statements. Therefore, the Court grants Defendants’
motion as to Plaintiffs claim under the Lanham Act for
this additional reason.
iv. Fraud.
To plead a claim for fraud based on an omission,
Plaintiff must allege the following: “(1) the conceal­
ment or suppression of material fact, (2) a duty to
disclose the fact to the plaintiff, (3) intentional conceal­
ment with intent to defraud, (4) justifiable reliance,
and (5) resulting damages.’” Mui Ho v. Toyota Motor
Corp., 931 F. Supp. 2d 987, 999 (N.D. Cal. 2013); see
also Tenet Healthsystem Desert, Inc. v. Blue Cross of
Cal., 245 Cal. App. 4th 821,844 (2016).“[T]he elements
of fraud and deceit based on concealment are the same
as for intentional fraud, with the additional require­
ment that the plaintiff allege that the defendant con­
cealed or suppressed a material fact in a situation in
which the defendant was under a duty to disclose that

App. 45
material fact.” Tenet Healthsystem Desert, 245 Cal.
App. 4th at 844. Where, as here, the transactions do not
involve fiduciary or confidential relationships, a duty
to disclose arises when:
(1) the defendant makes representations but
does not disclose facts which materially qual­
ify the facts disclosed, or which render his dis­
closure likely to mislead; (2) the facts are
known or accessible only to defendant, and
defendant knows they are not known to or
reasonably discoverable by the plaintiff; [or]
(3) the defendant actively conceals discovery
from the plaintiff.
Id.
Plaintiff fails to allege facts sufficient to support
a duty to disclose. Additionally, Plaintiff fails to al­
lege concealment of any material facts or any reason­
able reliance on the purported omissions in light of
YouTube’s disclosures in its terms and guidelines. A
plaintiff cannot demonstrate reasonable reliance on an
alleged omission when the purportedly omitted fact is
disclosed in the contract. Davis v. HSBC Bank Nevada,
N.A., 691 F.3d 1152, 1163-64 (9th Cir. 2012) (finding
plaintiff could not demonstrate justifiable reliance on
purported failure to disclose annual fee because fee
was disclosed in terms to which plaintiff agreed); Circle
Click Media LLC v. Regus Mgmt. Grp. LLC, 2013 WL
57861, at *11 (N.D. Cal. Jan. 3, 2013) (same); cf. Woods
v. Google, Inc., 889 F. Supp. 2d 1182,1195-96 (N.D. Cal.
2012) (finding that plaintiff could not reasonably rely

(

App. 46
on statements that contradicted the clear language of
an advertising agreement).
In essence, Plaintiff alleges that Defendants
wrongfully censor hate speech and do so at till behest
of foreign governments in contravention of “American
Constitutional style free speech.” (Dkt. No. 19, % 237.)
In their fraud claim, Plaintiff allege that Defendants
failed to disclose that they wrongfully censor hate
speech and do so at the behest of foreign govern­
ments in contravention of American Constitutional
free speech. However, YouTube discloses that it re­
views flagged content to determine whether it violates
its Community Guidelines, which in turn state that
“Hateful content” is prohibited. (Dkt. No. 28, Ex. B.)
YouTube further discloses in its monetization policies
that videos with ads must meet its Advertiser-friendly
content guidelines and that content, including “Hate­
ful content,” which violates its Community Guidelines
is not eligible for monetization. (Id., Ex. C.) YouTube’s
Advertiser-friendly content guidelines provides “exam­
ples of content not suitable for ads, which will result in
a ‘limited or no ads’ monetization state [,]” as well as
topics that are “not advertiser-friendly[,]” such as:
“Hateful content[.]” (Id., Ex. D.)
In light of these disclosures, the Court finds that
Plaintiff fails to plead facts to show an omission which
contradicts the terms of YouTube’s terms and guide­
lines, which are incorporated by reference into Plain­
tiff’s operative complaint. Additionally, the Court finds
that any reliance on the alleged omissions would not
be reasonable in light of these disclosures. To the

App. 47
extent Plaintiff alleges that blocking or demonetizing
videos which violate YouTube’s terms and guidelines is
wrongful because it is done at the behest of foreign gov­
ernments, Plaintiff has not alleged any facts to show
how such an omission would be material.
Plaintiff also alleges that Defendants maintained
“blacklists” and failed to disclose that they did so. (Dkt.
No. 19, n 171, 180, 238, 239.) However, Plaintiff fails
to allege that he was on an alleged blacklist and/or
what the blacklist was for or how Defendants used the
blacklists. In the absence of such allegations, Plaintiff
fails to state a claim for fraud.
v. Breach of Implied Covenant of Good
Faith and Fair Dealing.
“[U]nder California law, all contracts have an im­
plied covenant of good faith and fair dealing.” In re
Vylene Enterprises, Inc., 90 F.3d 1472, 1477 (9th Cir.
1996) 0citing Harm v. Frasher, 181 Cal. App. 2d 405,
417 (I960)). The covenant “exists merely to prevent one
contracting party from unfairly frustrating the other
party’s right to receive the benefits of the agreement
actually made.” Guz v. Bechtel Nat. Inc., 24 Cal. 4th
317,349 (2000). However, the covenant “cannot impose
substantive duties or limits on the contracting parties
beyond those incorporated in the specific terms of their
agreement.” Id. Thus, to the extent a plaintiff seeks to
impose limits “beyond those to which the parties actu­
ally agreed, the [implied covenant] claim is invalid. To
the extent the implied covenant claim seeks simply to

App. 48
invoke terms to which the parties did agree, it is su­
perfluous.” Id. at 352 (emphasis in original). “The cen­
tral teaching of Guz is that in most cases, a claim for
breach of the implied covenant can add nothing to a
claim fa breach of contractLamke v. Sunstate Equip­
ment Co., LLC., 387 F. Supp. 2d 1044, 1047 (N.D. Cal.
2004). Nevertheless, a plaintiff may bring implied cov­
enant claim where the plaintiff alleges that the de­
fendant acted in bad faith to frustrate the contract’s
benefits. See Guz, 24 Cal. 4th at 353 n.18 (acknowledg­
ing that “the covenant might be violated if termination
of an at-will employee was a mere pretext to cheat the
worker out of another contract benefit to which the em­
.”)
ployee was clearly entitled
It is well established that “the scope of conduct
prohibited by the covenant of good faith is circum­
scribed by the purposes and express terms of the con­
tract.” Carma Developers (Cal.), Inc. v. Marathon Dev.
California, Inc., 2 Cal. 4th 342, 373 (1992). “The im­
plied covenant of good faith and fair dealing rests upon
the existence of some specific contractual obligation.”
Racine & Laramie, Ltd. v. Dept of Parks & Recreation,
11 Cal. App. 4th 1026, 1031 (1992) (citing Foley v In­
teractive Data Corp., 47 Cal. 3d 654, 683-84, 689-90
(1988)). “The covenant of good faith is read into con­
tracts in order to protect the express covenants or
promises of the contract, not to protect some general
public policy interest not directly tied to the contract’s
purpose.” Foley, 47 Cal. 3d at 690.
Here, Plaintiff alleges that he entered into con­
tracts with Defendants for their services and that the

App. 49
contracts give Defendants unilateral discretion to re­
move, restrict, demonetize or demote his content. (Dkt.
No. 19,1 245.) The contracts also allow Defendants to
change the terms at any time without notice. (Id.)
Plaintiff further alleges none of his demonetized or re­
stricted videos violated the letter or spirit of their con­
tracts. (Id., ‘Jl 247.) Plaintiff contends that, pursuant to
the contracts, he was entitled to a wide audience and
to some portion of the profits from advertisements that
Defendants earned from hosting Plaintiff’s content.
(Id., H 248.) Defendants breached the covenant of good
faith and fair dealing by unfairly and unlawfully inter­
fering with his rights to receive the benefits of the con­
tracts. (Id.)
As Plaintiff alleges, the contracts he had with
Defendants authorized them to remove, restrict and
demonetize his posted videos unilaterally, at their dis­
cretion. (Id., H 245.) As YouTube’s terms and guidelines
state: ‘YouTube is not obligated to display any adver­
tisements alongside your videos and may determine
the type and format of ads available on the YouTube
Service.” (Dkt. No. 28, Ex. A, % 1.1.) YouTube’s Commu­
nity Guidelines lists several categories of prohibited
material, including “Hateful content.” (Id., Ex. B.)
YouTube’s monetization policies provide that videos
will only be “monetized” if they comply with YouTube’s
Advertiser-friendly content guidelines and that con­
tent that violates its Community Guidelines, includ­
ing “Hateful content,” is not eligible for monetization
and will be removed from YouTube. (Id., Ex. C.) You­
Tube’s Advertiser-friendly content guidelines provides

App. 50
“examples of content not suitable for ads, which will
result in a ‘limited or no ads’ monetization state!,]” as
well as topics that are “not advertiser-friendly!,]” such
as “Hateful content.” (Id,., Ex. D.)
Plaintiff repeatedly complains in his operative
complaint that Defendants are wrongfully censoring
his hate speech. (Dkt. No. 19,1 39 (alleging Defendants
have been involved with the European Union in
launching an online “code of conduct” aimed at fighting
hate speech), % 41, f 45 (Google enforces the European
Union’s hate speech laws online), f 60 (same regarding
Christchurch call agreement), 1 76 (Google abandoned
free speech by demonetizing videos with hateful con­
tent), ff 210-211, f 212 (Defendants violated Plaintiff’s
First Amendment rights by censoring and demone­
tizing his hate speech), f 215 (Defendants knowingly
enforced foreign governments’ hate speech and censor­
ship laws against him), 272 (a controversy exists be­
tween Plaintiff and Defendants regarding Defendants’
hate speech policies).) However, as Plaintiff concedes,
YouTube’s terms and guidelines explicitly authorize
YouTube to remove or demonetize content that violate
its policies, including “Hateful content.” Therefore,
Defendants’ removal or demonetization of Plaintiff’s
videos with “Hateful content” or hate speech was au­
thorized by the parties’ agreements and cannot sup­
port a claim for breach of the implied covenant of good
faith and fair dealing. Carma Developers, 2 Cal. 4th at
374 (“if defendants were given the right to do what
they did by the express provisions of the contract there
can be no breach”); see also Ebeid v. Facebook, Inc.,

App. 51
2019 WL 2059662, at *8 (N.D. Cal. May 9, 2019) (find­
ing that plaintiff’s breach of implied covenant of good
faith and fair dealing claim failed because plaintiff
conceded that Facebook had the contractual right to
remove or disapprove any post or ad at Facebook’s sole
discretion). Thus, Plaintiff fails to state a claim for
breach of the implied covenant of good faith and fair
dealing.
vi. Tortious Interference with Eco­
nomic Advantage.
In order to state a claim for tortious interference
with prospective economic advantage, Plaintiff must
allege: “(1) an economic relationship between the
plaintiff and some third party, with the probability of
future economic benefit to the plaintiff; (2) the defend­
ant’s knowledge of the relationship; (3) intentional acts
on the part of the defendant designed to disrupt the
relationship; (4) actual disruption of the relationship;
and (5) economic harm to the plaintiff proximately
caused by the acts of the defendant.” Korea Supply Co.
v. Lockheed Martin Corp., 29 Cal. 4th 1134,1153 (2003)
(internal quotations and citations omitted). Addition­
ally, a plaintiff must plead “that the defendant’s inter­
ference was wrongful ‘by some measure beyond the fact
of the interference itself.’ ” Della Penna v. Toyota Motor
Sales, USA, Inc., 11 Cal. 4th 376, 393 (1995). “[A]n act
is independently wrongful if it is unlawful ... if it is
proscribed by some constitutional, statutory, regulatory,
common law, or other determinable legal standard.”

App. 52
Korea Supply Co. v. Lockheed Martin Corp., 29 Cal. 4th
1134,1159 (2003).
Plaintiff has not alleged an economic relationship
that he has with a third party or that Defendant knew
of any such relationship. Thus, Plaintiff fails to state a
claim for tortious interference with prospective eco­
nomic advantage. Additionally, Plaintiff fails to allege
that Defendants’ alleged interference was wrongful “by
some measure beyond the fact of the interference it­
self.” Della Penna, 11 Cal. 4th at 393. Accordingly,
Plaintiff fails to allege facts sufficient to state a claim
for tortious interference with prospective economic ad­
vantage.
vii Declaratory Relief.
Plaintiff seeks declaratory relief on his federal
claims. Because Plaintiff fails to allege facts sufficient
to state these claims against Defendants, this claim
fails as well.
CONCLUSION
Therefore, for the foregoing reasons, the Court
GRANTS Defendants’ motion to dismiss and dismisses
all of Plaintiff’s claims. This dismissal is with preju­
dice because granting leave would be futile. Addi­
tionally, because the Court dismisses all of Plaintiff’s
claims with prejudice the Court DENIES Plaintiff’s
motions for temporary restraining order and prelimi­
nary injunction and for expedited discovery as MOOT.

App. 53
The Court will issue a separate judgment in favor of
Defendants. The Clerk is instructed to close the file.
IT IS SO ORDERED.
Dated: May 20, 2020
/s/ Sallie Kim
SALLIE KIM
United States Magistrate Judge

App. 54
Andrew Martin & Associates P.L.L.C.
1685 S. Colorado Blvd #S,442
Denver, Colorado, 80222
Phone: 720-432-1205
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
BOB LEWIS,
Plaintiff,
vs.
Google, INC, A Delaware
Corporation YouTube LLC,
A Delaware Limited
Liability Company
Defendant(s)

) Case No.: l:19-cv-02387
)
)
)
)
)

SECOND AMENDED
COMPLAINT FOR
DAMAGES, RELIEF,
DECLARATORY
JUDGMENT

JURY TRIAL
DEMANDED
) (Filed Nov. 13, 2019)
)
)
)
)

Trial Date: None Set

The Plaintiff, Bob Lewis (PLAINTIFF LEWIS)
brings this complaint for actual, compensatory and
punitive damages, declaratory judgment, and other
equitable relief against Defendants YouTube LLC
(YOUTUBE) and its parent company Google, Inc
(GOOGLE), in their individual capacity, as joint
enterprise state actors and/or agents of China, The
EU, and multiple other foreign governments, collec­
tively referred to as GOOGLE unless otherwise spec­
ified.

App. 55
I. Introduction
1. The Plaintiff, Bob Lewis, brings this lawsuit to stop
GOOGLE to stop unlawfully discriminating against
him by virtue of censoring and demonetizing his videos
because of GOOGLE’s opposition to PLAINTIFF LEWIS’
Christian religious affiliation, national origin as a
patriotic American citizen who supports American
tradition and culture, and for lawfully exercising his
Constitutionally protected First Amendment rights.
GOOGLE has a well-established history of discriminatorily censoring those that promote Christian beliefs,
patriotic American culture and laws, and constitution­
ally protected First Amendment free speech rights.
GOOGLE does this specifically by arbitrarily and ma­
liciously demonetizing LEWIS’ videos, algorithmic lim­
iting the discovery of LEWIS’ channel and videos on
their platform, and deleting LEWIS’ YouTube channel,
Misandry Today.
2. Private company Defendants GOOGLE function
as de facto and/or de jure agents and as joint enterprise
state actors on behalf of the nations of The Peoples Re­
public of China, the EU, and the signatory govern­
ments of the Christchurch Call agreement. As de facto
and/or de jure agents and as joint enterprise state ac­
tors, GOOGLE enforces Chinese, EU, and Christ­
church Call signatory government laws within the
United States, against law abiding United States citi­
zens, in violation of the United States Constitution.
Specifically, these foreign countries criminalize hate
speech, while United States laws and federal courts
recognize no hate-speech exception under the United

App. 56
States Constitution’s First Amendment protections
that American citizens enjoy.
3. This action, while filed on behalf of LEWIS, per­
sonally and as an individual, is a case of extreme
national importance to the American people. On infor­
mation and belief, GOOGLE knowingly and actively
foments insurrection against the United States gov­
ernment by: (1) funding non-profit organizations like
the Southern Poverty Law Center, which directly pro­
vides material aid and funding domestic terrorists
such as Antifa; (2) creating and maintaining company
sponsored employee “Resist” protest groups which pro­
test, sometimes violently, against the American Fed­
eral government and American citizens who promote
and/or speak out in support of the American tradition,
and the American way of life; (3) by directly and indi­
rectly, funding Anti-American and sometimes illegal
causes, such as open borders, and aiding and abetting
the federal crime of illegal immigration.
4. On information and belief, GOOGLE CEO Sundar
Pichai, (Pichai), in an apparent effort to conceal the
true extent of GOOGLE’S foreign collaboration and
foreign interference with American citizen’s constitu­
tionally protected free speech rights, misrepresented
material facts while under oath when he testified to
the United States Congress in 2018. Under U.S. federal
law, willfully misrepresenting material facts under
oath to Congress is a crime pursuant to 18 U.S. Code
§ 1621 and/or 18 U.S. Code § 1001. Pichai did this when
he denied, under oath, that GOOGLE/YOUTUBE

App. 57
maintained blacklists and manually manipulated con­
tent on their websites and/or platforms.
5. On information and belief, on behalf of the afore­
mentioned foreign governments, GOOGLE uses its
global market dominance and massive monopoly power
to unlawfully and/or unethically coerce other big tech
companies and others to collaborate with GOOGLE
to knowingly, unethically, unlawfully, and maliciously
silence, censor, and demonetize and/or deplatform
American citizens who speak in support of Christian
beliefs, American values, laws, and traditions. Further,
GOOGLE coerces other big tech companies to become
de facto and/or de jure agents and joint enterprise col­
laborators with foreign governments to enforce foreign
law on United States citizens, on American soil, includ­
ing the PLAINTIFF LEWIS. GOOGLE’s actions may
very well violate the Sherman Act, the Lanham act, in
addition to aiding and abetting violations of federal
criminal law, as well as constitute insurrection against
the United States government and American people.
6. GOOGLE’s bad faith censorship, silencing Ameri­
can’s free speech, national origin discrimination, and
religious discrimination, in addition to other damages
caused to PLAINTIFF LEWIS, constitute a direct do­
mestic threat to the Constitution of the United States;
represent a clear and present danger to the integrity
of the United States electoral system and the Ameri­
can way of life as well as represent a clear and present
danger to law abiding American patriots and citizens.

App. 58
II. Jurisdiction And Venue
7. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 6.
8. This Court has original subject matter jurisdiction
pursuant to 28 U.S. Code § 1331 over the PLAINTIFF’S
Free Speech Discrimination, Religious Discrimination,
and National Origin Discrimination claims pursuant
to 42 U.S. Code § 1983 and 42 U.S. Code § 2000a, as
well as other applicable federal civil rights law.
9. This Court also has original subject matter ju­
risdiction pursuant to 28 U.S. Code § 1331 over the
PLAINTIFF’S constitutional challenge claims regard­
ing 47 U.S. Code § 230.
10. This Court has personal jurisdiction over GOOGLE
because the defendant maintains a significant pres­
ence in Colorado state by virtue of maintaining a $130
million dollar, 200,000+ square foot office complex that
employs in excess of 800 workers located in the city of
Boulder Colorado.
11. This Court has personal jurisdiction over the
PLAINTIFF LEWIS as he resides in Colorado.
12. Additionally, this Court has diversity jurisdiction
pursuant to 28 U.S. Code § 1332, as PLAINTIFF
LEWIS has no connection to GOOGLE’s headquarters
located in the State of California and the Plaintiff’s
damages to exceed $75,000.

1

App. 59
13. Additionally, this Court has original jurisdiction
because, as described herein, GOOGLE’s Terms of Ser­
vice constitutes an adhesion contract and is uncon­
scionable and unenforceable as a matter of law.
14. Venue is proper in this District under 28 U.S.C.
§§ 1391 for the reasons set forth in statements 10,11,
and/or 13.
III. The Parties
15. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 14.
16. PLAINTIFF LEWIS, is a societal, cultural, and
political commentator who owns and operates the web­
site located at internet DNS address: MisandryToday.
com, operates the YouTube Channel Misandry Today,
and is the author of The Feminist Lie, It Was Never
About Equality.
17. DEFENDANT GOOGLE Inc. is a for profit, public
corporation incorporated under the laws of the State of
Delaware, with its principal place of business in Moun­
tain View, California and regularly conducts business
throughout the state of Colorado and globally. On in­
formation and belief, at all relevant times, Defendant
GOOGLE acts as an agent of Defendant YOUTUBE
and controls and/or participates in controlling/direct­
ing discriminatory practices as related to restricting
constitutionally protected speech, religious discrimina­
tion, and national origin discrimination, as well as

App. 60
other causes of action alleged in this complaint regard­
ing the YouTube.com website and/or platform.
18. DEFENDANT YOUTUBE, LLC is a for profit lim­
ited liability corporation, wholly owned by GOOGLE,
and organized under the laws of the State of Delaware.
YOUTUBE’s principal place of business is Mountain
View, California and it regularly conducts business
throughout Colorado. Defendant YOUTUBE operates
the largest and most popular internet video viewer
site, platform, and service in the world and holds itself
out as one of the most important and largest public fo­
rums for the expression of ideas and exchange of
speech available to the public. On information and be­
lief, at all relevant times Defendant YOUTUBE acts as
an agent of GOOGLE, and uses, relies on, and partici­
pates with GOOGLE in restricting speech on the
YOUTUBE website, platform, or service.
IV. Facts Relevant To All Claims
19. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 18.
4.1: GOOGLE is a Chinese State Actor
20. In September 2015, Chinese President Xi Jinping
arrived in Seattle and met with tech leaders. GOOGLE
executives were invited to this private meeting be­
tween tech leaders and the Chinese President.

App. 61
21. In June 2017, The People’s Republic of China
passed a National Intelligence Law. On information
and belief, a true and correct translated copy was ob­
tained and downloaded by Brown University on or
about March 2019 and, at the time this pleading was
prepared, is located online at the following website:
http://cs.brown.edu/courses/cscil800/sources/2017_PRC_
NationalintelligenceLaw.pdf
(Incorporated and attached herein as Exhibit A)
22. The People’s Republic Of China National Intelli­
gence Law in June 2017, Article 7 states in pertinent
part:
Any organization or citizen shall support, as­
sist and cooperate with the state intelligence
work in accordance with the law. (Article 7,
Exhibit A)
23. Article 12 of China’s 2017 National Intelligence
Law states:
State intelligence work organization may, in
accordance with relevant state regulations,
establish cooperative relations with relevant
individuals and organizations and entrust rel­
evant work (Article 12, Exhibit A)
24. Article 16 of China’s 2017 National Intelligence
Law states, in pertinent part:
When the staff of the state intelligence work
organization performs tasks according to law,
in accordance with the relevant provisions of
the State, after obtaining the corresponding

App. 62
documents, they may enter the relevant areas
and places that restrict access and may un­
derstand and ask relevant information to rel­
evant organs, organizations and individuals.
(Article 16, Exhibit A)
25. Article 17 of China’s National Intelligence Law
states, in pertinent part:
According to the needs of the work, according
to the relevant national regulations, the staff
of the national intelligence work agency may
preferentially use or legally requisition the
... communication tools, sites and buildings
of relevant organs, organizations and individ­
uals, and if necessary, may set relevant work­
places and equipment. . .
(Article 17, Exhibit A)
26. Article 28 of China’s National Intelligence Law
states, in pertinent part:
Whoever violates the provisions of this law
and obstructs the state intelligence work or­
ganization and its staff from carrying out in­
telligence work according to the law shall be
recommended by the state intelligence work
agency to be dismissed by the relevant units
or be warned by the state security organs or
public security organs . .. Detained, if it con­
stitutes a crime, criminal responsibility shall
be investigated according to law.
(Article 28, Exhibit A)

App. 63
27. In January 2018, news website Engadget re­
ported GOOGLE maintains at least four offices in
China located in Hong Kong, Shenzhen, Beijing, and
Shanghai staffed with hundreds of employees. On in­
formation and belief, GOOGLE operates in China, as
an organization, thus is required by the 2017 National
Intelligence Law to function as a joint enterprise col­
laborator and agent of the Chinese government. (See:
https://www.engadget.com/2018/01/17/google-shenzhen
office/, attached and incorporated herein by reference
as Exhibit B)
28. In August 2018, the Intercept published an article '
outlining GOOGLE’s secret joint enterprise agreement
with the Chinese government to develop a search en­
gine designed to be compatible with China’s state
sponsored censorship and intelligence activities. This
search engine project was called Project Dragonfly.
Project Dragonfly, during development, had hundreds
of GOOGLE employees assigned to work on it.
(See: https://theintercept.com/2018/08/01/google-chinasearch-engine-censorship/, attached and incorporated
herein by reference as Exhibit C)
29. The Intercept reported GOOGLE CEO Sundar
Pichai met with a top Chinese government official as
part of an effort to re-enter China in December 2017.
tExhibit C)
30. According to the Intercept, GOOGLE’s Project
Dragonfly will filter websites blocked by the Chinese
government’s great firewall. This includes but is not
limited to information about political opponents, free

App. 64
speech, news organizations, and academic studies. Pro­
ject Dragonfly’s censorship will apply across the plat­
form. CExhibit C)
31. On information and belief, despite public outcry
from the American people and GOOGLE’s own employ­
ees, GOOGLE continued development of Project Drag­
onfly on behalf of the Chinese government until, at
least, July 2019.
32. On information and belief, GOOGLE willingly
collaborates and operates as a joint-enterprise state
actor with the Chinese government’s national intelli­
gence service and works to keep this relationship a se­
cret. The only reason these facts are publicly known to
the Intercept is because this information was leaked
by a GOOGLE employee.
33. PLAINTIFF LEWIS has been very public and vo­
cal regarding his support of Constitutional First
Amendment Free Speech Rights, Second Amendment
right to bear arms, The sanctity of the U.S. electoral
System, his support of American tradition and culture,
as well as his firm opposition to communist and social­
ist enemies of the United States concept of capitalism.
34. On information and belief, GOOGLE Subsidiary
YOUTUBE uses censorship techniques associated
with Project Dragonfly against PLAINTIFF LEWIS to
discriminate against him based on his national origin
as a patriotic American, silence his constitutionally
protected Freedom of Speech regarding as values as an
American citizen and his religion as a Christian.

App. 65
35. In 2018, The Electronic Frontier Foundation crit­
icized GOOGLE for its lack of transparency related to
its willingness to work for the People’s Republic of
China regarding creation Project Dragonfly on behalf
of the Chinese government. (See Electronic Frontier
Foundation Article: Google Needs to Come Clean About
Its Chinese Plans, published August 15, 2018 and at­
tached and incorporated herein as Exhibit D)
4.2: GOOGLE Operates As EU State Actor
36. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 35.
37. In or about 2012, DEFENDANT YOUTUBE cre­
ated it’s “Trusted Flagger” program. On an Official
YouTube Blog Post from September 22, 2016 states in
pertinent part:
Back in 2012, we noticed that certain people
were particularly active in reporting Commu­
nity Guidelines violations with an extraordi­
narily high rate of accuracy. From this insight,
the Trusted Flagger program was born to pro­
vide more robust tools for people or organiza­
tions who are particularly interested in and
effective at notifying us of content that vio­
lates our Community Guidelines.
As part of this program, Trusted Flaggers re­
ceive access to a tool that allows for reporting
multiple videos at the same time.

App. 66
Our Trusted Flaggers’ results around flagging
content that violates our Community Guide­
lines speak for themselves: their reports are
accurate over 90% of the time. This is three
times more accurate than the average flagger.
(See: https://youtube.googleblog.com/2016/09/growingour-trusted-flagger-program.html, attached and incor­
porated herein at Exhibit E)
On information and belief, YOUTUBE Trusted Flag­
gers get videos pulled offline three times more often
than an average flagger. In other words, 90% of the
time when a Trusted Flagger flags a video for removal,
that video is taken offline.
38. Online News Outlet The Verge reported on March
17, 2014, that the British Government and other gov­
ernment agencies are YOUTUBE Trusted Flaggers.
They state, in pertinent part:
A report from The Financial Times last week
revealed that British authorities are
among these super naggers, and they’re
constantly scouring the video site for extrem­
ist propaganda.
Roughly 200 people and organizations are in­
cluded in the pool of trusted flaggers, the Jour­
nal says, and less than 10 of those slots are
filled by government agencies.
And that power shouldn’t be underestimated:
more often than not, flags from participants
spell doom for videos that receive them.

App. 67
(See: https://vvww.theverge.com/2014/3/17/5519542tyoutubesuper-flaggers-elite-group-hunts-and-kills-content, at­
tached and incorporated herein as Exhibit F)
39. On or about May 31, 2016 The Guardian Re­
ported in Pertinent Part:
An online “code of conduct” aimed at fighting
hate speech has been launched by the Euro­
pean Union in conjunction with four of the
world’s biggest internet companies.
Facebook, Twitter, YOUTUBE and Microsoft
have all been involved in the creation of the
code ...
... It establishes “public commitments” for
the companies, including the requirement to
review the “majority of valid notifications for
removal of illegal hate speech” in less than 24
hours, and to make it easier for law enforce­
ment to notify the firms directly.
GOOGLE’s public policy and government re­
lations director, Lie Junius, said “We’re com­
mitted to giving people access to information
through our services, but we have always pro­
hibited illegal hate speech on our platforms
. . . We are pleased to work with the Commis­
sion to develop co-and self-regulatorv ap­
proaches to fighting hate speech online.”
(See: https://www.theguardian.com/technology/2016/may/
31/facebook-youtube-twitter-microsoft-eu-hate-speechcode, Attached and incorporated herein as Exhibit G)

I

App. 68
40. The text of European Union’s Code of Conduct
agreement with Facebook, Microsoft, Twitter, and
YOUTUBE/GOOGLE can be downloaded here:
https://ec.europa.eu/newsroom/document.cfm?doc_id=
40573, (Attached and incorporated herein as Exhibit
ID
41. GOOGLE is a joint enterprise and/or pervasively
intertwined state actor by virtue of signing the Euro­
pean Union Code of Conduct Agreement, which states
in pertinent part:
The IT Companies support the European
Commission and EU Member States in the ef­
fort to respond to the challenge of ensuring
that online platforms do not offer opportuni­
ties for illegal online hate speech to spread virally.
“the Commission will intensify work with IT
companies, notably in the EU Internet Forum,
to counter terrorist propaganda and to de­
velop by June 2016 a code of conduct against
hate speech online”

i

In order to prevent the spread of illegal hate
speech, it is essential to ensure that relevant
national laws transposing the Council Frame­
work Decision 2008/913/JHA are fully en­
forced by Member States in the online as well
as the in the offline environment.
The IT Companies underline that the pre­
sent code of conduct 3 is aimed at guiding
their own activities as well as sharing best

App. 69
practices with other internet companies, plat­
forms and social media operators.
The IT Companies, taking the lead on coun­
tering the spread of illegal hate speech online,
have agreed with the European Commission
on a code of conduct setting the following pub­
lic commitments:
• The IT Companies to have in place clear
and effective processes to review notifications
regarding illegal hate speech on their services
so they can remove or disable access to such
content. The IT companies to have in place
Rules or Community Guidelines clarifying
that they prohibit the promotion of incitement
to violence and hateful conduct.
• Upon receipt of a valid removal notifica­
tion, the IT Companies to review such re­
quests against their rules and community
guidelines and where necessary national laws
transposing the Framework Decision 2008/
913/JHA, with dedicated teams reviewing re­
quests.
• The IT Companies to review the majority
of valid notifications for removal of illegal
hate speech in less than 24 hours and remove
or disable access to such content, if necessary.
• In addition to the above, the IT Companies
to educate and raise awareness with their us­
ers about the types of content not permitted
under their rules and community guidelines.
The notification system could be used as a tool
to do this.

App. 70
• The IT companies to provide information
on the procedures for submitting notices, with
a view to improving the speed and effective­
ness of communication between the Member
State authorities and the IT Companies, in
particular on notifications and on disabling
access to or removal of illegal hate speech
online. The information is to be channelled
through the national contact points desig­
nated bv the IT companies and the Member
States respectively. This would also enable
Member States, and in particular their law
enforcement agencies, to further familiarise
themselves with the methods to recognise and
notify the companies of illegal hate speech
online.
• The IT Companies to encourage the provi­
sion of notices and flagging of content that
promotes incitement to violence and hateful
conduct at scale by experts, particularly via
partnerships with CSOs (civil society organi­
zations), by providing clear information on in­
dividual company Rules and Community
Guidelines and rules on the reporting and no­
tification processes. The IT Companies to en­
deavour to strengthen partnerships with CSOs
bv widening the geographical spread of such
partnerships and, where appropriate, to pro­
vide support and training to enable CSO part­
ners to fulfill the role of a “trusted reporter”
or equivalent, with due respect to the need of
maintaining their independence and credibil­
ity.

App. 71
• The IT Companies relv on support from
Member States and the European Com­
mission to ensure access to a representative
network of CSO partners and “trusted re­
porters” in all Member States to help provide
high quality notices. IT Companies to make
information about “trusted reporters” availa­
ble on their websites.
• The IT Companies to provide regular
training to their staff on current societal de­
velopments and to exchange views on the po­
tential for further improvement.
• The IT Companies to intensify coopera*
tion between themselves and other platforms and social media companies to
enhance best practice sharing.
• The IT Companies and the European
Commission, recognising the value of inde­
pendent counter speech against hateful rhet­
oric and prejudice, aim to continue their work
in identifying and promoting independent
counter-narratives, new ideas and initiatives
and supporting educational programs that en­
courage critical thinking.
• The IT Companies to intensify their work
with CSOs to deliver best practice training on
countering hateful rhetoric and prejudice and
increase the scale of their proactive outreach
to CSOs to help them deliver effective counter
speech campaigns. The European Commis­
sion, in cooperation with Member States, to
contribute to this endeavour by taking steps

I

App. 72
to map CSOs’ specific needs and demands in
this respect.
• The European Commission in coordina­
tion with Member States to promote the ad­
herence to the commitments set out in this
code of conduct also to other relevant plat­
forms and social media companies.
(See: Exhibit H)
42. In December 2016 The EU Commissioner for Jus­
tice, Consumers and Gender Equality, Vera Jourova,
released a report from the EU Commission entitled
Code of Conduct On Countering Illegal Hate Speech
Online: First Results of Implementation. (EU Justice
Commission Hate Speech 2016 Report)
(See: http://ec.europa.eu/infonnation society/newsroom/
image/document/2016-50/factsheetcode-conduct-8 40573.
pdf attached and incorporated herein as Exhibit D
43. The position of EU Commissioner for Justice,
Consumers and Gender Equality is the person who is
responsible for overseeing the Commission depart­
ment responsible for EU policy on justice, consumer
rights and gender equality.
44. Framework Decision 2008/913/JHA Council Frame­
work Decision 2008/913/JHA of the Acts Adopted Un­
der Title VI of the EU Treaty of November 28,2008 on
combating certain forms and expressions of racism and
xenophobia by means of criminal law.

App. 73
(See: https://eur-lex.europa.eu/LexUriServ/LexUriServ.
do?uri=OJ:L:2008:328:0055:0058:en:PDF, attached and
incorporated herein as Exhibit J)
45. On information and belief, GOOGLE is abiding
by and expanding to U. S. markets, the online enforce­
ment of “hate speech” laws promulgated by the Euro­
pean Union. Framework Decision 2008/913/JHA
requires EU Member States to enact criminal penal­
ties for racism and other forms of hate speech. (Pg 3,
Article 3: Criminal Penalties, Exhibit J)
46. The EU Justice Commission Hate Speech 2016
Report notes that the grounds for reporting hate
speech were the following: race, color, national origin,
ethnic origin, decent, religion, anti-Muslim hatred, an­
tisemitism, sexual orientation or gender-related ha­
tred. (Pg. 3 of EU Justice Commission Hate Speech
2016 Report, Exhibit T)
47. The EU Justice Commission Hate Speech 2016
Report also notes that of the 600 notifications that
were made, 270 were made by EU sanctioned “Trusted
Flaggers” (Pg. 4, EU Justice Commission Hate Speech
2016 Report, Exhibit I)
48. The ERDi, (European Digital Rights) an associa­
tion of civil and human rights organizations across Eu­
rope, in opposition to the Defendants’ Code of Conduct
agreement with the European Union, stated, in perti­
nent part:
Firstly, the code recognises that the compa­
nies are “taking the lead on countering the

App. 74
spread of illegal hate speech online.” It seems
peculiar that either the European Commis­
sion or the EU Member States should not to
take the lead.
In a society based on the rule of law, private
companies should not take the lead in law en­
forcement, theirs should always have only a
supporting role - otherwise this leads to arbi­
trary censorship of our communications.
This creates a problem because internal rules
are mixed together with legal obligations,
with no clear distinction between them - it
then becomes unclear what is against the law
and what is not, what is legitimate speech and
what is not.
In the code of conduct, there is not a single
mention about the essential role of judges in
our democratic societies. There is no mention
about the enforcement of the law by public
authorities. At each crucial point where law
should be mentioned, it is not.
The European Union is founded on crucial
human rights principles, including that re­
strictions should be provided for by law.
Giving private companies the “lead” role in
dealing with a serious societal problem and
replacing the law with arbitrary implementa­
tion of terms of service is not a durable answer
to illegal hate speech. Ignoring the risk of
counterproductive impacts is reckless. At the
same time as not solving the problems that
this code was created to address, it under­
mines fundamental freedoms.

App. 75
(See:_https://edri.org/guide-code-conduct-hate-speech/,
attached and incorporated herein as Exhibit J)
49. Article 19, a multi-national organization that
monitors the freedom of expression, also weighed in on
the EU Justice Commissions Code of Conduct Agree­
ment. In their June 2016 report, “EU: European Com­
mission’s Code of Conduct for Countering Illegal Hate
Speech Online and the Framework Decision,” they con­
clude in pertinent part:
ARTICLE 19 is deeply concerned that, despite
its non-binding character, the Code will lead
to more censorship by private companies and therefore a chilling effect on freedom of
expression on the platforms they run. This is
especially so in the absense of any independ­
ent or meaningful commitment to protect
freedom of expression.
The Code of Conduct is likely to be trumpeted
by governments and companies alike as a
milestone in the fight against “illegal hate
speech.” ARTICLE 19 believes however that it
is misguided policy on the part of govern­
ments, one that undermines the rule of law.
For companies, it is likely to amount to no
more than a public relations exercise. In the
meantime, freedom of expression online is
likely to be greatly diminished.
(See: https://www.articlel9.org/data/files/medialibrary/
38430/EU-Code-of-conduct-analysis-FINAL.pdf attached
and incorporated herein as Exhibit K)

App. 76
50. The European Code of Conduct joint enterprise
agreement signed by the EU government and GOOGLE
remains in force at the time of this filing.
4.3: GOOGLE Operates As
A Multi-National State Actor
51. Plaintiff Lewis alleges and incorporates all pre­
ceding allegations as fully set forth above in para­
graphs 1 through 50.
52. On May 15, 2019, The Guardian reported that
multiple governments and big tech companies entered
into an agreement called the Christchurch call. They
report in pertinent part:
World leaders and heads of global technology
companies have pledged at a Paris summit to
tackle terrorist and extremist violence online
in what they described as an “unprecedented
agreement”.
Known as the Christchurch Call, it was or­
ganised by New Zealand’s prime minister,
Jacinda Ardern, and the French president,
Emmanuel Macron, in response to the attack
on the Christchurch mosque on 15 March in
which 51 people were killed.
Macron and Ardern met ministers from G7
nations and leaders of internet companies in­
cluding GOOGLE. Facebook, Microsoft and
Twitter. Facebook’s CEO, Mark Zuckerberg,
did not attend.

App. 77
The initiative calls on signatory nations to
bring in laws that ban offensive material and
to set guidelines on how the traditional media
report acts of terrorism. However, as a volun­
tary initiative it is for individual countries
and companies to decide how to honour their
pledge.
Britain, Canada, Australia, Jordan, Senegal,
Indonesia, Norway and Ireland signed the
pledge, along with the European commis­
sion, Amazon, Facebook, GOOGLE. Microsoft,
Twitter, YOUTUBE. Daily Motion and Quant.
(See: https://www.theguardian.com/world/2019/may/15/
jacinda-ardern-emmanuel-macronchristchurch-callsummit-extremist-violence-online, attached and incor­
porated herein as Exhibit L)
53. Then the Guardian goes on to state:
The US has reportedly refused to sign up be­
cause of concerns about freedom of speech.
(Exhibit L)
54. On May 16, 2019, The New Zealand Herald reit­
erated that the United States refused to enter into this
agreement because of concerns over the Constitutional
protections on Free Speech. They report:
The White House will not sign an interna­
tional agreement to combat online extremism
brokered between French and New Zealand
officials and top social media companies, amid
US concerns that it clashes with constitu­
tional protections for free speech.

App. 78
(See: https://www.nzherald.co.nz/nz/news/article.cfm?
c_id=l&obj ectid= 12231363, attached and incorporated
herein as Exhibit M)
55. On information and belief, as part of their agree­
ment under the Christchurch Call, online service pro­
viders, including GOOGLE committed to sharing
information with other online service providers and
foreign governments, including the expansion and use
of shared databases, URLs (websites) and notifying
each other when they take down online content they
disagree with. This also includes working within a
multi-company and multi-government stake holder
process and for companies to work together in a coor­
dinated fashion.
(Pg. 2 ChristChurch Call Agreement, See: https://www.
christchurchcall.com/christchurchcall.pdf, attached and
incorporated herein as Exhibit AO
56. Additionally, on information and belief, online
service providers, including GOOGLE, agreed to work
with the signatory governments to shut down ac­
counts. (Pg. 2, Exhibit N)
57. On information and belief, online service provid­
ers, including GOOGLE, also agreed to use their algo­
rithms to promote alternatives to promote counter­
narratives that oppose any content the Christchurch
call signatory governments and tech companies disa­
gree with. There is nothing in this agreement that re­
quires signatory online service providers, including
GOOGLE, to ensure that any counter narrative prom­
ulgated be based in fact. (Pg. 2, Exhibit N)

App. 79
58. On information and belief, the Christchurch call
signatory online service providers, including GOOGLE,
also commit to the signatory governments to redirect
online users from what they frame as extremist con­
tent as well as develop technical solutions to remove
extremist content quickly and to work together with
the other signatory companies and governments to
share these censorship technologies with each other.
(Pg. 2, Exhibit N)
59. On information and belief, the Christchurch call
also calls for online service providers, including
GOOGLE, to prevent online content they define as ex­
tremist from impacting offline activity as well. (Pg. 2,
Exhibit N)
60. On information and belief, the Christchurch call
signatory governments and online service providers,
including GOOGLE, agree to work with and cooperate
with signatory governments law enforcement agencies
to investigate and prosecute illegal online activity. On
information and belief, for the countries that criminal­
ize hate speech, this includes online hate speech as
well. (Pgs 2-3, Exhibit N)
61. Not only do the Christchurch call agreement sig­
natory online service providers agree to work with sig­
natory countries law enforcement, they also agree to
to work with partner countries to develop best prac­
tices to remove content they disagree with, through
direct operational coordination and trusted infor­
mation exchanges. In other words, on information and
belief, the signatory online service providers, including

App. 80
Defendants YouTube/Google agree to share internal in­
formation with other signatory tech companies and
signatory governments. (Pg. 3, Exhibit N)
62. The Christchurch also has a website located at:
www.christchurchcall.com where in their supporters
section they list the following tech companies as signa­
tory supporters: Amazon.com; dailymotion; Facebook;
GOOGLE: Microsoft; Qwant; Twitter; YOUTUBE. (At­
tached and incorporated herein as Exhibit O)
4.4: GOOGLE Enforces Foreign
Hate Speech Laws & Opposes Free
Speech In the United States
63. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 62.
64. DEFENDANTS GOOGLE and YOUTUBE oper­
ate largest publicly accessible commercial video web­
site for the general public to purchase, rent, and
otherwise view videos, movies, and TV shows in the
United States and the world. YOUTUBE’s website also
provides the largest publicly accessible commercial
online public forum for paid customers and nonpaying
users alike to express and exchange speech online.
YOUTUBE’s website is the largest online public forum
in the history of the world for TV show rentals, movie
rentals, TV show purchases, movie purchases, and
video based speech expression available to the general
public in the history of the world. The total number of
monthly active users on YOUTUBE, as of May 2019 is

App. 81
2 billion, which represents almost half of the 4.4 billion
internet users in the world. This means that 45% of the
world’s population online uses YOUTUBE. YOUTUBE
is locally available in 91 countries, and accessible in
80 different languages. 73% of United States adults
use YOUTUBE. Alexa website ranking service ranks
YOUTUBE’s website as number 2 in the world.
YOUTUBE is also the second largest social media plat­
form in the world behind Facebook by user count. Glob­
ally, YOUTUBE users watch 1 billion hours of content
everyday. 500 hours of video content is uploaded to
YOUTUBE every minute.
65. YOUTUBE markets itself as website that pro­
motes free speech and freedom of expression free from
censorship. YOUTUBE’s about page specifically states:
Our Mission is to give everyone a voice and
show them the world. We believe that every­
one deserves to have a voice, and that the
world is a better place when we listen, share
and build community through our stories.
Our values are based on four essential free­
doms that define who we are.
Freedom of Expression:
We believe people should be able to speak
freely, share opinions, foster open dialogue,
and that creative freedom leads to new voices,
formats, and possibilities.
Freedom of Information
We believe everyone should have easy, open
access to information and that video is a

App. 82
powerful force for education, building under­
standing, and documenting world events, big
and small.
Freedom of Opportunity:
We believe everyone should have a chance to
be discovered, build a business and succeed on
their own terms, and that people-not gatekeepers-decide what’s popular.
Freedom to Belong:
We believe everyone should be able to find
communities of support, break down barriers,
transcend borders and come together around
shared interests.
(See: https://www.youtube.com/yt/about/ Also attached
and incorporated herein as Exhibit P)
66. On March 14, 2018, GOOGLE Insights published
an internal research document called “The Good Cen­
sor” (Hereafter referred to as The Good Censor) that
was leaked and published by Breitbart News (At­
tached and incorporated herein as Exhibit Q).
67. GOOGLE publicly confirmed this document’s le­
gitimacy to The Verge, ((https://www.theverge.com/2018/10/
10/17961806/google-leaked-research-good-censorcensorshipfreedom-of-speech-research-china, attached and incor­
porated at Exhibit R)
68. GOOGLE admits that GOOGLE is one of the
three Big Tech companies that “control” the majority of
online conversations around the world. Notice how
GOOGLE didn’t state they facilitate the majority of
online conversations, they state they control them.

App. 83
This isn’t a semantic difference, it’s a factual one. (Pg
14, Exhibit Q)
69. GOOGLE admits social media was a major influ­
ence in the outcome of the 2016 election that put Pres­
ident Donald Trump in the White House. While
GOOGLE blames Russian interference for this, thanks
to the Mueller investigation, we now know that the
Russian Interference narrative was not credible. (See
Pg 19, Exhibit #Q)
70. GOOGLE Stipulates the “We’re not responsible
for what happens on our platforms Defense” is no
longer credible or viable. (Pg. 22, Exhibit Q)
71. GOOGLE admits that one of the reasons users
behave badly online is because “everyone has a voice”
which, according to GOOGLE, means:
The ‘little guvs and girls’ can now be heard emerging talent., revolutionaries, whistle­
blowers and campaigners. But ‘everyone else’
can shout loudly too - including terrorists, rac­
ists, misogynists and oppressors. And because
“everything looks like the New York Times”
on the net, it’s harder to separate fact from
fiction, legitimacy from illegitimacy, novelty
from history, and positivity from destructivity.
When consumers/producers feel like they
‘own’ their media platforms, their experiences
of free speech and censorship feel more per­
sonal too. They increasingly value their abil­
ity to speak freely, but also feel personally
assaulted when confronted through their own

App. 84
channels, lashing out more violently when
their voice and opinions are threatened.
(Pg. 32, Exhibit Q)
72. GOOGLE admits that China’s government is the
most opposed to Free Speech on the interne and polit­
ical interference is increasing. (Pgs. 35-39, Exhibit Q)
73. GOOGLE admits that governments are attempt­
ing to control political discourse online by asking
GOOGLE to censor more and more content. GOOGLE
even admits that 56% of these government censorship
requests relate to YOUTUBE. GOOGLE does not dis­
close which governments are making these censorship
requests. (Pg. 43, Exhibit Q)
74. GOOGLE even admits that tech firms have mis­
managed this situation, they state:
In a global world, the platforms’ status as bas­
tions of free speech is hugely undermined by
their willingness to bend to requirements of
foreign repressive governments. When plat­
forms compromise their public-facing values
in order to maintain a global footprint, it can
make them look bad elsewhere.
(Pg 47, Exhibit Q)
75. GOOGLE states that governments of other coun­
tries are attempting to assert power over global policy.
They state:
As the tech companies have grown more dom­
inant on the global stage, their intrinsically
American values have come into conflict with

App. 85
some of the values and norms of other coun­
tries.
Now, governments are seeking to balance
their national values with those of the tech gi­
ants through increasingly strong measures.
And because the internet is a global platform,
many want those nationally-desired protec­
tions to be enacted globally - influencing how
the entire internet functions.
(Pg. 56, Exhibit Q)
76. On information and belief, GOOGLE chose to
abandon free speech. They state:
Recognising the anxiety of users and govern­
ments, tech companies are adapting their
stance towards censorship, and changing
their terms of service to reflect the current
mood. This could mean taking a more hard­
line approach to hateful content, as Twitter
has done, or preventing the monetization of
questionable videos, as YouTube has done.
Whatsmore, companies are publicly declaring
these new values, making them as intrinsic to
the platforms’ identities as their unwavering
support of freedom of expression once was.
(Pg.62, Exhibit Q)
77. Additionally, GOOGLE admits it abandoned pas­
sive facilitation of online content to actively curating
content. In other words, GOOGLE admits it now acts
as a publisher.

App. 86
Following a series of public and media out­
cries around problematic content online, such
as the Teppa Pig scandal’, tech companies are
slowly stepping into the role of moderator one which they have long sought to avoid be­
cause of the associated responsibilities.
Specifically, platforms are significantly amping
up the number of moderators they employ in YouTube’s case increasing the number of
people on the lookout for inappropriate con­
tent to more than 10,000. With Perspective, an
API that uses machine learning to spot abuse
and harassment online, Google’s Jigsaw initi­
ative is also “studying how computers can
learn to understand the nuances and context
of abusive language at scale” and fording ways
to “help moderators sort comments more ef­
fectively".
(Pg. 63-64, Exhibit Q)
78. GOOGLE admits American tradition prioritizes
Free Speech for effective democracy. They state:
100% commit to the American tradition that
prioritises free speech for democracy, not civil­
ity. By creating spaces where all values, in­
cluding civility norms, are always open for
debate.
(Pg. 66, Exhibit Q)
79. On information and belief, GOOGLE again ad­
mits it abandoned the American tradition of Freedom
of Speech in favor of a European view that, in
GOOGLE’s words, they now strive to:

App. 87
Create well-ordered spaces for safety and ci­
vility. 100% commit to the European tradition
that favors dignity over liberty, and civility
over freedom By censoring racial and reli­
gious hatred, even when there’s no provoca­
tion of violence.
(Pg. 66-85, Exhibit Q)
4.5: GOOGLE’s Contracts Are Unconscionable
80. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 79.
81. All registered users ofYouTube.com are required
to agree to YOUTUBE’s Terms of Service. (Attached
and incorporated herein at Exhibit S)
82. YOUTUBE’s contracts, including but not limited
to, are non-negotiable and by definition makes it an ad­
hesion contract.
83. YOUTUBE’s Terms of Service allow it, in
YOUTUBE’s sole discretion, to change the terms of ser­
vice at any time, in any way. Registered YOUTUBE us­
ers, per the terms of service, are required to agree, in
advance, to be bound to any changes YOUTUBE makes,
regardless of what they may be. YOUTUBE States:
YouTube, in its sole discretion, may modify or
revise these Terms of Service, and policies at
any time, and you agree to be bound by such
modifications, or revisions.
(Section 1(b) Exhibit S)

App. 88
84. YOUTUBE’s Terms of Service require users to
agree to stipulate they will not submit any content or
material contrary to YOUTUBE’s Guidelines, or con­
trary to local, national, or international laws and reg­
ulations. However, YOUTUBE’s Terms of Service never
mentions what nations laws its referring to. They
state:
You further agree that you will not submit to
the Service any Content or other material
that is contrary to the YouTube Community
Guidelines, currently found at: https://youtube.
com/t/community_guidelines, which may be
updated from time to time, or contrary to ap­
plicable local, national, and international
laws or regulations.
(Section 6(e) Exhibit S)
85. One of YOUTUBE’s competitor’s MetaCafe also
has a Terms & Conditions Adhesion Contract that al­
lows it to change modify the Terms of Service at any
time, without notice. They state:
Metacafe reserves the right to amend these
Terms & Conditions at any time and without
notice, and it is your responsibility to review
these Terms & Conditions for any changes.
(Pg. 5, General Section: Metacafe Terms & Conditions,
attached and incorporated herein as Exhibit T)
86. Another YOUTUBE competitor Twitch.tv also
has a Terms of Service adhesion contract that allows it
to change the terms at any time without notice. They
state:

App. 89
Twitch may amend any of the terms of these
Terms of Service by posting the terms. Your
continued use of the Twitch Services after the
effective date of the revised Terms of Service
constitutes your acceptance of the terms.
(Pg. 4, Section 6, Twitch.tv Terms of Service, attached
and incorporated herein as Exhibit U)
87. Another YOUTUBE competitor, Daily Motion
also has a Terms of Use adhesion contract that allows
it to change the terms at any time without notice. They
state:
DailyMotion may, in its sole discretion, modify
these Terms from time to time and You agree
to be bound by such modifications.
(Pg. 2, Section 2.3 Daily Motion Terms of Use, attached
and incorporated herein as Exhibit V)
88. When it comes to YOUTUBE and its closest com­
petitors, PLAINTIFF LEWIS has no meaningful choice
as to whether or not to do business with YOUTUBE, as
YOUTUBE has the largest video platform in the world,
and YOUTUBE’s competitors, like YOUTUBE, require
contracts of adhesion that allow YOUTUBE’s competi­
tion to change the terms at any time, without any no­
tice to the PLAINTIFF LEWIS.
89. YOUTUBE’s contracts, including their Terms of
Service, which allows it to change its terms, at its sole
discretion, without notice to PLAINTIFF LEWIS, at
any time, constitutes unfair surprise. This is especially
true because YOUTUBE, at all times, advertises itself

App. 90
as a Free Speech platform, but its own internal docu­
ments and the way it enforces its its content policies
demonstrate it’s exactly the opposite of a Free Speech
platform on behalf of multiple foreign governments.
YOUTUBE never disclosed these facts to PLAINTIFF
LEWIS. PLAINTIFF LEWIS only discovered these
facts after they were leaked to the press and after
YOUTUBE wrongfully, maliciously and unlawfully
retaliated and discriminated against PLAINTIFF
LEWIS for exercising his First Amendment right to
Freedom of Speech, his religious affiliation, and his na­
tional origin as a patriotic American citizen.
90. GOOGLE never disclosed to PLAINTIFF LEWIS
that it was acting as a joint enterprise state actor of
the Chinese government to create and implement a
highly censored search engine, Project Dragonfly.
PLAINTIFF LEWIS only discovered these facts after
they were leaked to the press by a GOOGLE employee.
91. On information and belief, YOUTUBE’s adhesion
contract, in the aforementioned areas addressed in
statements 80 to 90 mirrors GOOGLE’s terms of ser­
vice.
4.6: 47 U.S. Code § 230 is Unconstitutional
92. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 91.
93. 47 U.S. Code § 230 allows interactive computer
services, including, but not limited to GOOGLE, to

App. 91
knowingly and willfully censor American citizens for
any material they submit to these services, even if
American citizens submit material that is constitu­
tionally protected under the United States Constitu­
tion.
94. 47 U.S. Code § 230 doesn’t define the terms: “har­
assing” or “otherwise objectionable.” In fact, these
terms aren’t defined anywhere in 47 U.S.C. Part I,
Common Carrier Regulation.
95. In 47 U.S. Code § 230 Congress made the follow­
ing findings, in pertinent part:
(a)(3) The Internet and other interactive
computer services offer a forum for a true di­
versity of political discourse, unique opportu­
nities for cultural development, and myriad
avenues for intellectual activity.
(a)(5) Increasingly Americans are relying on
interactive media for a variety of political, ed­
ucational, cultural, and entertainment ser­
vices.
Then, 47 U.S. Code § 230 appears to be internally in­
consistent at (c)(2)(A) by allowing interactive computer
services, like GOOGLE, to knowingly censor Ameri­
can’s constitutionally protected speech, free from any
civil liability whatsoever under 42 U.S. Code § 1983 or
42 U.S. Code § 2000a.
96. The United States Constitution’s First Amend­
ment states in pertinent part: “Congress shall make
no law . . . abridging the freedom of speech . . . ” On

App. 92
information and belief, 47 U.S. Code § 230 allows inter­
active computer services, including but not limited to,
GOOGLE, to abridge freedom of speech free from civil
liability.
97. In the United States, there is no hate speech ex­
ception under U.S. law that allows an American citizen
to be censored for promulgating hateful rhetoric. U.S.
Courts have completely and repeatedly rejected the
idea that American citizens’ constitutionally protected
Free Speech rights should be abridged because of hate
speech.
98. GOOGLE stipulates its hate speech policies run
counter to American tradition, in the Good Censor in­
ternal research document, as stated earlier in this
complaint. GOOGLE’s hate speech policies also run
counter to well-settled United States law and chill
online free speech.
4.7: YouTube.com is a Place of Public
Accommodation Per 42 U.S.C. § 2000a
99. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 98.
100. YOUTUBE’s website, YouTube.com and its mo­
bile Apps allow registered users to pay for premium
video access through their subscription service
YouTube Red.
101. YOUTUBE rents and sells movies and TV shows
to registered users.

App. 93
102. YOUTUBE allows registered users to view vid­
eos as well as critique and comment on videos, through
their comment system and their like/dislike system.
103. YOUTUBE allows registered users to create
their own videos, films, and documentaries and You­
Tube hosts this content on their website.
104. If a registered YOUTUBE user obtains over
100,000 subscribers to their YOUTUBE channel, YOU­
TUBE provides these users access to their video pro­
duction studios to assist them in creating video content
for YOUTUBE’s platform.
105. YOUTUBE allows registered users to contribute
money to registered YOUTUBE video content creators
directly, through a system known as “Superchats.”
106. YOUTUBE also maintains contracts with adver­
tisers and shows those advertiser ads on videos on
their platform. A portion of YOUTUBE’s advertising
revenue is shared with registered users who create
videos hosted on YOUTUBE’s website YouTube.com.
107. If the YOUTUBE registered user’s ad revenue
reaches a certain threshold in the United States,
YOUTUBE issues the registered user an 1-9 tax form
for income earned.
108. An American citizen must be a registered user
on YOUTUBE to purchase, rent, comment, rate, or sub­
scribe to their video service YouTube Red.

.)

App. 94
109. YOUTUBE’s website’s primary purpose is to
sell, rent, and host movies, TV shows, and the inde­
pendently created videos of its registered users.
110. YOUTUBE only operates this service on the in­
ternet and their website is accessed through desktop
computers, laptop computers, TVs, and mobile phones.
YOUTUBE doesn’t maintain brick and mortar loca­
tions to view their videos, TV shows, and movies.
111. YOUTUBE’s address in cyberspace is YouTube,
com
112. On information and belief, YOUTUBE is primar­
ily both a digital theater and a place of exhibition or
entertainment.
113. On information and belief, YOUTUBE provides
closed captioning of videos hosted on its website for the
hearing impaired.
114. On information and belief, YOUTUBE’s android
mobile app works with android accessibility features
for access support for blind and low vision users by vir­
tue of the talkback and BrailleBack applications and
other special accessibility features.
115. In a letter to Congress dated September 25,
2018, The United States Department of Justice Office
of the Attorney General stated that the Department of
Justice considers websites to be places of public accom­
modation, when they stated in pertinent part:
The department first articulated its inter­
pretation that the ADA applies to ‘public

App. 95
accommodations* websites over 20 years ago.
This interpretation is consistent with the
ADA’s Title III requirement that the goods,
services, privileges, or activities provided by
places of public accommodation be equally ac­
cessible to people with disabilities.
(See Letter from the Office of the Assistant Attorney
General to Congress, dated September 25, 2018, at­
tached and incorporated herein as Exhibit W)
116. On information and belief, YOUTUBE’s and
GOOGLE’s terms of service and community guidelines
were created, in large part, to protect users on the ba­
sis of race, color, religion, or national origin, as de­
scribed by 42 U.S.C. § 1983 and 42 U.S.C. § 2000a.
4.8: Facts Related To GOOGLE’s
Adverse Actions Against PLAINTIFF
117. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 116.
118. LEWIS joined YOUTUBE as a registered user
on or about August 13, 2016.
119. LEWIS created a channel called, “Misandry To­
day” and went by the online name of DDJ.
120. LEWIS published his first YouTube video, a
commercial for his book The Feminist Lie, It Was Never
About Equality, on or about May 29, 2017.

App. 96
121. LEWIS published a video commentary entitled,
“The Social Media Constitutional Crisis” on YouTube,
com on or about October 28, 2017.
(See: https://www.bitchute.com/video/BfEZys8xmL4/ at­
tached and incorporated herein by reference as Ex­
hibit X)
122. LEWIS published a video commentary entitled,
“The Feminist & SJW Treason” on YouTube.com on or
about November 3, 2017.
(See: https://www.bitchute.com/video/tupmlwMrJVI/, at­
tached and incorporated herein by reference as Ex­
hibit Y)
123. LEWIS published a video commentary entitled,
“The Legal Controversies Surrounding Social Media
Companies” on YouTube.com on or about March 20,
2018.
(See: https://www.bitchute.com/video/NswlbKoXijw/, at­
tached and incorporated herein by reference as Ex­
hibit Z)
124. From October 28, 2017 forward, YOUTUBE de­
monetized many of LEWIS’ videos requiring him to
file an internal YOUTUBE appeal. On information
and belief, YOUTUBE provides only one mechanism
for demonetization appeal, and that mechanism con­
sists of clicking an appeal button. On information and
belief, YOUTUBE demonetization appellants, includ­
ing LEWIS, have no ability to submit written facts, at­
tach files, or submit any other type of information to
allow YOUTUBE to conduct any good faith meaningful

App. 97
inquiry or make a good faith informed decision about
demonetization. Further, this has been exactly LEWIS’
experience in attempting to appeal YOUTUBE De­
monetization. While LEWIS won many of these de­
monetization appeals, at least 19 appeals were lost. Of
the YOUTUBE appeals LEWIS won, he was never
compensated for lost revenue for YOUTUBE’S wrong­
ful demonetization of his videos.
125. LEWIS published a video commentary entitled,
“YouTube Demonetizes Videos During Upload” on
YouTube.com on or about June 9, 2018. In this 13 mi­
nute video, LEWIS demonstrates, with images and de­
scriptions, that YOUTUBE demonetized the LEWIS’
video during the upload process, before the upload and
internal processing was finished and before it ever
went live. (See:_https://www.bitchute.com/video/Ppu
NRGN_dxe, attached and incorporated herein by ref­
erence as Exhibit AA)
126. On or about December 4, 2018, LEWIS pub­
lished the video on YouTube.com, “Overthrowing De­
mocracy Bv Anv Means Necessary” Shortly after
upload, YOUTUBE demonetized this video. (See:_https://
www.bitchute.com/video/50JrLcz6H0g/, attached and
incorporated herein by reference as Exhibit AB)
127. LEWIS appealed and on December 6, 2018,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “Overthrowing Democracy
Bv Anv Means Necessary” will remain. (See email from
YouTube dated December 6, 2018, attached and incor­
porated herein as Exhibit AC)

App. 98
128. On or about December 7, 2018, LEWIS published the video on YouTube.com, “The SPLC Finances
Terrorists.” Shortly after upload, YOUTUBE demone­
tized this video. (See: https://www.bitchute.com/video/
IsKlbxp3iIBw/, attached and incorporated herein by
reference as Exhibit AD)
129. LEWIS appealed and on December 10, 2018,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “The SPLC Finances Ter­
rorists.” will remain. (See email from YouTube dated
December 10, 2018, attached and incorporated herein
as Exhibit AE)
130. On or about December 17, 2018, LEWIS pub­
lished the video on YouTube.com, “American Values
Are Haram” Shortly after upload, YOUTUBE demone­
tized this video. (See: https://www.bitchute.com/video/
nGOL5VwoPxa6/, attached and incorporated herein by
reference as Exhibit AF)
131. LEWIS appealed and on December 20, 2018,
YOUTUBE emailed LEWIS to notify him that the
demonetization of his video, “American Values Are Ha­
ram” will remain. (See email from YouTube dated De­
cember 20, 2018, attached and incorporated herein as
Exhibit AG)
132. On or about December 21, 2018, LEWIS pub­
lished the video on YouTube.com, “Antifa Exposed:
Identification & Tactics (Part 2/5)” Shortly after up­
load, YOUTUBE demonetized this video. (See: https://
www.bitchute.com/video/YdLRKIFvoMQK/, attached and
incorporated herein by reference as Exhibit AH)

App. 99
133. LEWIS appealed and on December 23, 2018,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “Antifa Exposed: Identifica­
tion & Tactics (Part 2/5)” will remain. (See email from
YouTube dated December 23,2018, attached and incor­
porated herein as Exhibit AD
134. On or about December 22, 2018, LEWIS published the video on YouTube.com, “Antifa Exposed:
Astroturf Activism & Infiltration of Silicon Valiev.
DOJ & White House (Part 3/5)” Shortly after upload,
YOUTUBE demonetized this video. (See: https://www.
bitchute.com/video/ di65GKuNvswE/, attached and in­
corporated herein by reference as Exhibit AD
135. LEWIS appealed and on December 25, 2018,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “Antifa Exposed: Astroturf
Activism & Infiltration of Silicon Valiev. DOJ & White
House (Part 3/5)” will remain. (See email from You­
Tube dated December 25, 2018, attached and incorpo­
rated herein as Exhibit AK)
136. On or about December 28, 2018, LEWIS pub­
lished the video on YouTube.com, “The Rov Moore
Storv Is A Symptom Of A Larger Fraud” Shortly after
upload, YOUTUBE demonetized this video.
(See: https://www.bitchute.com/video/Ldg3jabZLQk/, at­
tached and incorporated herein by reference as Ex­
hibit AL)
137. While YOUTUBE never emailed LEWIS that he
won the demonetization appeal on his, “The Rov Moore

App. 100
Storv Is A Symptom Of A Larger Fraud” video, this
video was re-monetized the following day, December
29, 2018.
138. Shortly after LEWIS uploaded “The Roy Moore
Storv Is A Symptom Of A Larger Fraud” to YouTube,
com, he noticed that his video appeared to be getting
very few views compared to some of his other videos in
the same type of subject matter. Then, in the comments
section of this video, LEWIS observed comments from,
at least, three viewers inform him YOUTUBE never
notified them of the video, “The Rov Moore Storv Is A
Symptom Of A Larger Fraud” or other recent uploads
to his YouTube channel. (See Comments from viewers,
attached and incorporated herein as Exhibit AM)
139. On or about December 28, 2018, shortly after
the, “The Rov Moore Story Is A Symptom Of A Larger
Fraud” video was published onYouTube.com, in response
to his concerns over algorithm censorship, LEWIS pub­
lished the video on YouTube.com, “Did I get Algo Cen­
sored For Mv Rov Moore Research?” (See: https://www.
bitchute.com/video/x354fr9HJ6Q/, attached and incor­
porated herein by reference as Exhibit AN)
140. In the comments section of the “Did I get Algo
Censored For Mv Rov Moore Research?” video, LEWIS
noticed a comment from a viewer that stated he that
YOUTUBE unsubscribed this viewer from LEWIS'
YouTube channel more than once. (See Comment from
Did I get Algo Censored For My Roy Moore Research?”
video, attached and incorporated herein as Exhibit
AO)

App. 101
141. On or about December 30, 2018, LEWIS pub­
lished the video, “Is Google An Agent Of The Chinese
Government?” to YouTube.com.
(See https://www.bitchute.com/video/PeyOYCf-CxA/, at­
tached and incorporated herein by reference as Ex­
hibit AP)
142. On or about January 2, 2019, LEWIS published
the video, “Is Google’s Empire Built On Fraud?” to
YouTube.com.
(See https://www.bitchute.com/video/Z_VxHvwgMVE/,
attached and incorporated herein by reference as Ex­
hibit AQ)
143. On May 22, 2018, LEWIS published the video,
“The Beginning and End of a Life” to YouTube.com.
This video outlines LEWIS’ opposition to abortion.
(See: https://www.bitchute.com/video/t9Iyc2nlazO/, at­
tached and incorporated herein by reference as Ex­
hibit AH)
144. On or about December 16, 2018, LEWIS pub­
lished the video, “Google Values Aren’t American Val­
ues” to YouTube.com.
(See: https://www.bitchute.com/video/cJgrqQsfEueX/,
attached and incorporated herein by reference as Ex­
hibit AS)
145. On or about January 7, 2019, LEWIS published
the video, “YouTuber Law. Antitrust. & Discrimination
Against Americans” to YouTube.com.

App. 102
(See: https://www.bitchute.com/video/s01hRWOLoc/, at­
tached and incorporated herein by reference as Exhibit
AT)
146. On or about January 15,2019, LEWIS published
the video, “The Truth Behind The Steve King Witch­
hunt: Targeting Trump” to YouTube.com. Shortly after
upload, YOUTUBE demonetized this video.
(See: httpsyAvww.bitchute.com/video/V_uQNTBwqQk/, at­
tached and incorporated herein by reference as Ex­
hibit AU)
147. LEWIS appealed and on January 18, 2019,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “The Truth Behind The
Steve King Witchhunt: Targeting Trump” will remain.
(See email from YouTube dated January 18, 2019, at­
tached and incorporated herein as Exhibit AY)
148. On or about January 21,2019, LEWIS published
the video, “Antifa Now Targets Children” to YouTube.com. Shortly after upload, YOUTUBE demone­
tized this video. (See: https://www.bitchute.com/video/
v-vj6WPCqrO/, attached and incorporated herein be
reference as Exhibit AW)
149. LEWIS appealed and on January 24, 2019,
YOUTUBE emailed LEWIS to notify him that the
demonetization of his video, “Antifa Now Targets Chil­
dren” will remain. (See email from YouTube dated Jan­
uary 24, 2019, attached and incorporated herein as
Exhibit AX)

App. 103
150. On or about January 28,2019, LEWIS published
the video, “Necessary Medicine is A Bitter Pill To Swab
low” to YouTube.com. Shortly after upload, YOUTUBE
demonetized this video.
(See: https://www.bitchute.com/video/gjegxRY5baU/, at­
tached and incorporated herein by reference as Ex­
hibit AT)
151. LEWIS appealed and on January 30, 2019,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “Necessary Medicine is A
Bitter Pill To Swallow” will remain. (See email from
YouTube dated January 30, 2019, attached and incor­
porated herein as Exhibit AZ)
152. On or about January 27,2019, LEWIS published
the video, “A Deep Dive Into YouTube’s New Edicts &
Their Far Reaching Implications” to YouTube.com.
Shortly after upload, YOUTUBE demonetized this
video.
(See: https://www.bitchute.com/video/iYORmTnRyF4/,
attached and incorporated by reference herein as Ex­
hibit BA)
153. LEWIS appealed and on January 31, 2019,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “A Deep Dive Into YouTube’s
New Edicts & Their Far Reaching Implications” will
remain. (See email from YouTube dated January 31,
2019, attached and incorporated herein as Exhibit
BB)

App. 104
154. On or about February 5,2019, LEWIS published
the video, “Outrage Mob Finally Gets Held Accounta­
ble: Gavin Mclnness Lawsuit (1/3)” to YouTube.com.
Shortly after upload, YOUTUBE demonetized this
video.
(See: https://www.bitchute.com/video/aYSNFSlcLhhM/,
attached and incorporated by reference herein as Ex­
hibit BC)
155. LEWIS appealed and on February 7, 2019,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his video, “Outrage Mob Finally Gets
Held Accountable: Gavin Mclnness Lawsuit (1/3)” will
remain. (See email from YouTube dated February 7,
2019, attached and incorporated herein as Exhibit
BD)
156. On or about February 10, 2019 LEWIS pub­
lished the video, “Her Story: Elizabeth Warren - A
Case Study In Integrity” to YouTube.com.
(See: https://www.bitchute.com/video/oAvoHBClC30/,
attached and incorporated by reference herein as Ex­
hibit BE)
157. On or about February 20, 2019, LEWIS pub­
lished the video, “Her Storv: Why Wouldn’t The Hus­
band Pay?” to YouTube.com. Shortly after upload,
YOUTUBE demonetized this video. (See:_https://www.
bitchute.com/video/xkVNgSSKwoo/, attached and in­
corporated herein by reference as Exhibit BF)
158. LEWIS appealed and on February 23, 2019,
YOUTUBE emailed LEWIS to notify him that the

App. 105
demonetization of his video, “Her Story: Whv Wouldn't
The Husband Pav?” will remain. (See email from
YouTube dated February 23, 2019, attached and incor­
porated herein as Exhibit BG)
159. On or about January 23,2019, LEWIS published
the video “A Scorched Earth Case Study” to YouTube,
com. YOUTUBE Demonetized this video.
(See: https://www.bitchute.comMdeo/oJhov31uE08/, at­
tached and incorporated herein by reference as Ex­
hibit BH)
160. On or about March 11, 2019 LEWIS published
the video “The Smollet Case: What Everyone Missed”
to YouTube.com. YOUTUBE Demonetized this video.
(See: https://www.bitchute.com/video/tzcoZHTa-hY/, at­
tached and incorporated by reference herein as Ex­
hibit BI)
161. LEWIS appealed and on March 19, 2019,
YOUTUBE emailed LEWIS to notify him that the de­
monetization of his videos, “A Scorched Earth Case
Study” and “The Smollet Case: What Everyone Missed”
will remain. (See email from YouTube dated March 19,
2019, attached and incorporated herein as Exhibit
BJ)
162. On or about March 16, 2016 LEWIS published
the video, “The NZ Shooting Smells Like A False Flag”
on YouTube.com.

App. 106
(See: https://www.bitchute.com/video/PviQrUMGZw/, at­
tached and incorporated herein by reference as Ex­
hibit BK)
163. On or about March 17,2019, YOUTUBE emailed
LEWIS and informed him that his video, “The NZ
Shooting Smells Like A False Flag” was placed in re­
stricted mode. In its email, YOUTUBE admits that this
video doesn’t violate YouTube’s Community Guide­
lines, but YOUTUBE chose to restrict anyway. LEWIS
appealed and won. YOUTUBE unrestricted the video.
i

(See March 17,2019 email from YouTube, attached and
incorporated as Exhibit BL)
164. In addition to restricting the video, “The NZ
Shooting Smells Like A False Flag”. YOUTUBE also
demonetized this video. LEWIS also appealed this
decision. On or About March 17, 2019, YOUTUBE
emailed LEWIS and informed him that his demoneti­
zation appeal lost. (See March 17, 2019 email from
YouTube, attached and incorporated as Exhibit BM)
165. On or about March 18, 2019 YOUTUBE again
emailed LEWIS regarding his video, “The NZ Shoot­
ing Smells Like A False Flag”, and again restricted
it. LEWIS immediately appealed again and won.
YOUTUBE unrestricted the video. (See March 18,
2019 email from YouTube, attached and incorporated
as Exhibit BN)
166. On or about March 20, 2019 YOUTUBE again
emailed LEWIS regarding his video, “The NZ Shoot­
ing Smells Like A False Flag” to inform him that

App. 107
YOUTUBE removed this video. YOUTUBE alleged it
violated YouTube’s Community Guidelines. LEWIS im­
mediately appealed and won. (See March 20, 2019
email from YouTube, attached and incorporated as Ex­
hibit BO)
167. On or about March 21, 2019, YOUTUBE again
emailed LEWIS regarding his video, “The NZ Shooting
Smells Like A False Flag” and again removed it.
YOUTUBE again alleged it violated YouTube’s Com­
munity Guidelines. LEWIS, once again, immediately
appealed and this time lost and YOUTUBE gave
LEWIS’ channel a Community Guidelines warning.
(See March 21,2019 email from YouTube, attached and
incorporated as Exhibit BP)
168. On or about March 21, 2019, when YOUTUBE
removed LEWIS’ video, “The NZ Shooting Smells Like
A False Flag”. YOUTUBE also demonetized LEWIS’
entire YouTube channel with no opportunity to appeal.
(See Channel Status, attached and incorporated herein
as Exhibit BQ)
169. On information and belief, YOUTUBE removed
LEWIS’S video, “The NZ Shooting Smells Like A False
Flag” is because in the video, LEWIS cited the New
Zealand mass shooter’s manifesto in which the shooter
stated “The Nation with the closest political and social
values to mv own is the People’s Republic of China.”
This statement, by itself, debunks much of the left
wing media narrative. New Zealand criminalized cit­
ing the manifesto itself or even reading it. YOUTUBE
censored this video on behalf of China because it paints

App. 108
them in a negative light and demonstrates the New
Zealand mass shooter was a communist leftist, not a
rightwing extremist, as many left leaning online
sources associated with GOOGLE were falsely report­
ing the shooter as a right wing extremist. (See, Pg. 21,
New Zealand Mass Shooter Manifesto entitled: “The
Great Replacement,” attached and incorporated herein
as Exhibit BR)
4.9: GOOGLE Project Veritas Leaks & Fraud
170. On or about August 14, 2019 Project Veritas
published approximately 950 pages of leaks from
GOOGLE provided to them by former GOOGLE em­
ployee, Zachary Vorhies.
(See: https://www.projectveritas.com/2019/08/14/googlemachine-learning-fairness-whistleblower-goes-publicsays-burden-lifted-off-of-my-soul/, attached and incor­
porated herein by reference as Exhibit BS)
171. On Information and belief, YOUTUBE main­
tains at least one, possibly more blacklists, internally
referred to as Twiddler blacklists. (See Project Veritas
Leak, YouTube Twiddler Blacklist, attached and incor­
porated as Exhibit BT)
172. On information and belief, according to the Project Veritas Leaks GOOGLE created and maintains at
least two programming frameworks called Twiddler
and Ascorer that allows GOOGLE and YOUTUBE
to shadow ban or otherwise censor video and other
online content. (See Project Veritas Leak, GOOGLE

App. 109
Supen-oot Twiddler Quick Start Guide, attached and
incorporated as Exhibit BIT)
173. On information and belief, Twiddler allows
GOOGLE and YOUTUBE to boost online content.
Thus, GOOGLE and YOUTUBE can unethically and
falsely boost video or a website post go viral and in­
crease its visibility and discoverability. (Pg. 4, Exhibit
BT)
174. On information and belief, Twiddler allows
GOOGLE and YOUTUBE to filter online content. In
other words, this tool allows GOOGLE and YOUTUBE
to shadow ban, demote and conceal content without
the need to outright remove it. This includes, but is not
limited to LEWIS videos. (Pg. 4, Exhibit BT)
175. On information and belief, Twiddler also allows
GOOGLE and YOUTUBE to set the order of search re­
sults of websites and videos, including limiting the
maximum placement a video or website can show up
in a search. (Pg. 4, Exhibit BT)
176. On information and belief, GOOGLE uses Twid­
dler to wrongfully and unethically boost and increase
ad revenue of YouTube videos and Adsense enabled
websites, since ad revenues are earned through Ad­
sense and YouTube monetization are based on views.
177. On information and belief, GOOGLE uses Twid­
dler to unethically and wrongfully demote and conceal
YouTube videos and Adsense enabled websites to de­
fraud Video content creators, including, but not limited
to LEWIS, of ad revenue.

App. 110
178. On information and belief, GOOGLE uses Twid­
dler to overcharge advertisers by virtue of artificially
boosting videos, wrongfully causing advertisers to pay
more product placement.
179. On information and belief, GOOGLE enables
page level domain restrictions to unethically and
wrongfully conceal content it doesn’t like. (See Project
Veritas Leak, Page Level Domain Restriction, attached
and incorporated herein as Exhibit BV)
180. On information and belief, GOOGLE maintains
website blacklists for news sites. (See Project Veritas
Leak, News Black List Site For Google, attached and
incorporated herein as Exhibit BW)
181. On information and belief, GOOGLE can boost
website and links in real time using a software frame­
work called Realtime Boost (See Project Veritas Leak,
Realtime Boost, attached and incorporated herein as
Exhibit BX)
182. On information and belief, GOOGLE sees itself
as the arbiter of Truth, (see Project Veritas Leak, Fake
News-Letter, attached and incorporated herein as Ex­
hibit BY)
183. On or about January 23, 2019 online news web­
site Newsbusters, GOOGLE pays its employees to
work with partnered non-profit groups. Southern Pov­
erty Law Center is one of GOOGLE’s non-profit part­
ners.
i

App. Ill
(See: https://www.newsbusters.org/blogs/techwatch/corinneweaver/2019/01/23/google-fundsanti-conservative-hategroup-southern-poverty, attached and incorporated by
reference herein as Exhibit BZ)
184. Southern Poverty Law Center is a YOUTUBE
trusted flogger.
See: https://dailycaller.com/2018/03/01/splc-youtubegoogle-trusted-flaggers/, attached and incorporated
herein by reference as Exhibit CA)
185. According to GOOGLE, since 2016, GOOGLE
has donated at least $250,000 to The Southern Poverty
Law Center.
(See: https://wwu-wmic/inclusion/, attached and incor­
porated by reference as Exhibit CB)
186. In his December 7, 2018 video, “The SPLC
Funds Terrorists” LEWIS demonstrates the Southern
Poverty Law Center funds Antifa group By Any Means
Necessary (BAMN). On information and belief, BAMN
and other associated Antifa groups are responsible for
numerous acts of political violence against law abiding
patriotic American citizens within the United States.
187. Political violence is the dictionary definition of
terrorism.
188. On information and belief, BAMN and its Antifa
affiliates are terrorists funded, aided, and abetted,
both directly and indirectly by GOOGLE.
189. On information and belief, GOOGLE knowingly
and willingly sponsors, pays, and trains its employees

App. 112
to protest against the lawfully elected President, Don­
ald Trump and the United States government as part
of the publicly well-known “RESIST” movement. (See
Project Veritas Leak, Beginners Guide to Protesting,
Sponsored by Resist@Google.com. Attached and incor­
porated herein as Exhibit CC)

i

190. On information and belief, GOOGLE’s spon­
sored “RESIST” group is affiliated with at least one,
possibly more, Antifa Groups.
191. On information and belief, GOOGLE sponsored
and paid for an employee protest against the Trump
Administration over immigration policies/laws on or
about January 30, 2017. Over 2000 employees partici­
pated in the event. Sergey Brin and Sundar Pichai
spoke in support of protesting Trump’s Immigration
policies.
(See: https://www.theverge.eom/google/2017/l/30/14446
466/google-immigration-protestwalkout-trump-googlersunite, attached and incorporated herein by reference
as Exhibit CD)
192. On or about August 16,2019, GOOGLE Employ­
ees circulated a petition urging GOOGLE to resist sup­
port for ICE. Over 3,000 employees signed the petition.
(See: https://www.theguardian.com/technology/2019/aug/
16/hundreds-of-google-employeesurge-company-to-resistsupport-for-ice, attached and incorporated by reference
herein as Exhibit CE)
193. YOUTUBE allows content creators to share ad
revenue in return for posting video content on its

App. 113
website. This process is known as monetization and, on
information and belief, operates as part of GOOGLE’s
adsense program.
See: https://support.google.com/youtube/answer/72857?
hl=en, attached and incorporated herein by reference
as Exhibit CF)
194. GOOGLE allows website owners to join their ad­
sense program which allows website owners to get paid
for advertisements on their websites.
(See: https://www.google.com/adsense/start/, attached
and incorporated herein by reference as Exhibit CG)
195. GOOGLE also runs an adsense ad auction,
which allows advertisers to bid on ad placement. On
information and belief, GOOGLE conceals how dif­
ferent ads are valued for purposes of the auction.
GOOGLE refuses to provide any legitimate transpar­
ency regarding any aspect of its ad auction process.
GOOGLE, using Twiddler and other tools, can over­
value certain ads, by artificially boosting the websites/YouTube channels traffic, which can and does
artificially increase/inflate marketing costs to adver­
tisers.
4.10 GOOGLE IS PERVASIVELY
INTERTWINED WITH THE U.S. GOVT
196. On or about December 20, 2018, The Guardian
reported: “Google had integrated with US intelligence
agencies, it won an exclusive, no-bid $27m contract
to provide the NGA with “geospatial visualisation

App. 114
services”, effectively making the company the “eyes” of
America’s defence and intelligence apparatus. Compet­
itors criticised the NGA for not opening the contract to
the customary bidding process, but the agency de­
fended its decision, saying it had no choice: it had spent
years working with Google on secret and top-secret
programmes to build Google Earth technology accord­
ing to its needs, and could not go with any other com­
pany.”

(See Guardian News article entitled: Google’s Earth:
How the tech giant is heping the state spy on us, pub­
lished December 20, 2018, attached and incorporated
herein by reference as Exhibit CH: https://www.the
guardian.com/news/2018/dec/20/googles-earth-how-thetech-giant-is-helping-the-state-spy-on-us)
197. On or about February 12, 2019 Wired reported:
“A new Defense Department strategy calls for rapid
adoption of AI across the military, and Google, Oracle,
IBM, and SAP have signaled interest in a partnership.
The plan depends on the Pentagon working closely
with the tech industry to source the algorithms and
cloud computing power needed to run AI projects. Fed­
eral contracting records indicate that Google, Oracle,
IBM, and SAP have signaled interest in working on fu­
ture Defense Department AI projects. The heart of the
Pentagon AI strategy published Tuesday is a unit es­
tablished in June last year called the Joint Artificial
Intelligence Center, known as the JAIC. It will function
as a hub of AI expertise to support military branches,
and vet all Defense Department AI projects larger
than $15 million. The JAIC will also develop its own AI

App. 115
projects in a similar vein to Project Maven, including
by tapping tech company algorithms and AI tools.”
(See Wired News article entitled: The Pentagon Dou­
bles Down on AI - and Wants Help from Big Tech, pub­
lished on or about February 12, 2019, attached and
incorporated herein by reference as Exhibit Cl: https://
www.wired.com/story/pentagon-doubles-down-ai-wantshelp-big-tech/)
198. On or about March 27, 2019 Reuters reported:
“The U.S. Census Bureau has asked tech giants Google,
Facebook and Twitter to help it fend off “fake news”
campaigns it fears could disrupt the upcoming 2020
count, according to Census officials and multiple
sources briefed on the matter. . . . Ron Jarmin, the
Deputy Director of the Census Bureau, confirmed the
bureau was anticipating disinformation campaigns,
and was enlisting the help of big tech companies to
fend off the threat. Census Bureau officials have held
multiple meetings with tech companies since 2017 to
discuss ways they could help, including as recently as
last week, Jarmin said. So far, the bureau has gotten
initial commitments from Alphabet Inc’s Google, Twit­
ter Inc and Facebook Inc to help quash disinformation
campaigns online, according to documents summariz­
ing some of those meetings reviewed by Reuters.”
(See Reuters News article entitled: Exclusive: Fearful
of fake news blitz, U.S. Census enlists help of tech gi­
ants, published March 27, 2019, attached and incorpo­
rated herein by reference as Exhibit CJ: https://
www.reuters.com/article/us-usa-census-fakenews-exclusive/

App. 116
exclusive-fearful-of-fake-newsblitz-u-s-census-enlistshelp-of-tech-giants-idUSKCNlR812S)
199. On or about September 4,2019 Engadget reports:
Both intelligence agencies and tech companies are
gearing up to secure the 2020 US election, and that ap­
parently includes some heart-to-heart conversations
between the two. Bloomberg sources have learned
that Facebook, Google, Microsoft and Twitter are meet­
ing members of the FBI, Homeland Security and the
Office of the Director of National Intelligence to dis­
cuss the industry’s security strategy. This reportedly
includes plans for tighter coordination between tech
and government, as well as curbing disinformation
campaigns.
(See Engadget article entitled: Facebook, Google meet
intelligence agencies to talk 2020 election security,
published on or about September 9,2019, attached and
incorporated herein by reference as Exhibit CK: https://
www.engadget.com/2019/09/04/facebook-google-meet-usintelligence-for-2020-election-security/
200. On information and belief, LEWIS contends the
DEFENDANTS work with and/or are pervasively in­
tertwined with the United States government.
4.11 YOUTUBE RETALIATES AGAINST
PETITIONER VIA CONTRACT CHANGES
201. On or about November 9, 2019, YOUTUBE
emailed LEWIS to notify him of upcoming contract
changes to its terms of service. As part of the upcoming

App. 117
contractual changes YOUTUBE states: ‘YouTube may
terminate your access, or your Google account’s access
to all or part of the Service if YouTube believes, in its
sole discretion, that provision of the Service to you is
no longer commercially viable.” These changes are set
to take effect on or about December 10, 2019. (See
YouTube’s Updated Terms of Service, Effective Dec.
10, 2019, attached and incorporated herein by refer­
ence as Exhibit CL: https://www.youtube.eom/t/terms?
preview=20191210#main)
202. On information and belief, LEWIS perceives
these changes were implemented to shut down LEWIS’
channel partly for retaliatory purposes in response to
LEWIs filing this suit against the defendants.
V. LEGAL CLAIMS
FIRST CAUSE OF ACTION
(First Amendment of the U.S. Constitution
Pursuant to 42 U.S.C. § 1983)
203. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 193.
204. This case is a case of first impressions for the
reasons set forth below.
205. In, Matal v. Tam, United States Supreme Court
Justice Alito stated in pertinent part:
“Speech may not be banned on the ground
that it expresses ideas that offend.

App. 118
Speech that demeans on the basis of race, eth­
nicity, gender, religion, age, disability, or any
other similar ground is hateful ... but the
proudest boast of our free speech jurispru­
dence is that we protect the freedom to ex­
press ‘the thought that we hate.”
206. In Packingham VNorth Carolina, United States
Supreme Court Justice Kennedy stated in pertinent
part:
“A fundamental principle of the First Amend­
ment is that all persons have access to places
where they can speak and listen, and then, af­
ter reflection, speak and listen once more. The
United States Supreme Court has sought to
protect the right to speak in this spatial con­
text. A basic rule, for example, is that a street
or a park is a quintessential forum for the ex­
ercise of First Amendment rights. Even in the
modern era, these places are still essential
venues for public gatherings to celebrate some
views, to protest others, or simply to learn and
inquire. While in the past there may have
been difficulty in identifying the most im­
portant places (in a spatial sense) for the ex­
change of views, today the answer is clear. It
is cyberspace - the vast democratic forums of
the Internet in general, and social media in
particular. Social media offers relatively un­
limited, low-cost capacity for communication
of all kinds, and social media users employ
various websites to engage in a wide array of
protected First Amendment activity on topics
as diverse as human thought.

App. 119
The nature of a revolution in thought can be
that, in its early stages, even its participants
may be unaware of it. And when awareness
comes, they still may be unable to know or
foresee where its changes lead. The American
war is over; but this is far from being the case
with the American revolution. On the con­
trary, nothing but the first act of the great
drama is closed. So too here. While we now
may be coming to the realization that the
Cyber Age is a revolution of historic propor­
tions, we cannot appreciate yet its full dimen­
sions and vast potential to alter how we think,
express ourselves, and define who we want to
be. The forces and directions of the Internet
are so new, so protean, and so far reaching
that courts must be conscious that what they
say today might be obsolete tomorrow.
This case is one of the first this Court has
taken to address the relationship between the
First Amendment and the modern Internet.
As a result, the Court must exercise extreme
caution before suggesting that the First
Amendment provides scant protection for ac­
cess to vast networks in that medium.”
207. It is well-settled in United States Courts that a
required element for a successful cause of action pur­
suant to 42 U.S.C. § 1983 is that a defendant be a
“state” actor in order to be liable. However, the statute
itself doesn’t define the term “state.” Therefore, pursu­
ant to the rules of statutory construction, LEWIS con­
tends the Court adopt the plain meaning of the term of

App. 120
“state.” Black’s Law Dictionary 5th Edition defines
state, in pertinent part, as follows:
A people permanently occupying a fixed terri­
tory bound together by common-law habits
and custom into one body politic exercising,
through the medium of an organized govern­
ment, independent the sovereignty and con­
trol over all persons and things within its
boundaries, capable of making war and other
peace and of entering into international rela­
tions with other communities of the globe.
A territorial unit with a distinct general body
of law. The term may refer either to a body pol­
itic of a nation or to an individual governmen­
tal unit of such a nation.
208. Pursuant to the Black’s Law Dictionary plain
meaning of the term, “State", LEWIS contends that, as
a matter of law, the People’s Republic of China, The Eu­
ropean Union and the signatory countries of the
Christchurch Call agreement qualify as states for pur­
poses of 42 U.S.C. § 1983.
209. It’s also well settled that a private company
merely contracting with a state does not automatically
transform that private company into a state actor.
That is not the case here. In the current case at bar,
GOOGLE not only contracted with multiple foreign
states, but GOOGLE also knowingly and willfully
acted in join-enterprise and their conduct is perva­
sively intertwined with China by virtue of duties con­
ferred on GOOGLE pursuant to China’s 2017 National

App. 121
Intelligence Law and Google’s presence in China,
working for the Chinese government.
210. GOOGLE also acts in joint enterprise and is per­
vasively intertwined with the European Union, The
United Kingdom and other European countries.
GOOGLE has appointed the United Kingdom govern­
ment and other governments’ agencies (and their
agents) as trusted flaggers on GOOGLE and YOU­
TUBE. Further, GOOGLE and YOUTUBE assisted the
European Union in the creation of the European Code
of Conduct agreement they signed with the European
Union that empowers GOOGLE and YOUTUBE to en­
force European Union adopted hate speech laws on
their websites and/or platforms.
211. GOOGLE also acts in joint enterprise and is per­
vasively intertwined with the signatory governments
of the Chirstchurch call agreement as well. This is be­
cause they agreed to share their internal information
with these governments and notify them when they
take down online content that violates these govern­
ment’s hate speech laws.
212. GOOGLE/YOUTUBE, in their individual capac­
ity, under color of these state’s laws, knowingly, un­
ethically, maliciously, and in violation of well-settled
United States civil rights law, as de facto and/or de jure
state actors, enforce hate speech and other censorship
laws within the United States on American citizens,
including LEWIS as alleged above, by virtue of, includ­
ing but not limited to, algorithm censorship (Twiddler
shadow banning), purposefully failing to notify video

App. 122
subscribers of videos, purposefully unsubscribing
viewers from his YouTube channel, demonetization,
restricting videos, and removing videos. These are a
violations of LEWIS constitutional rights of Free
Speech.
213. GOOGLE/YOUTUBE, in their individual capac­
ity, as a state actor, also discriminatorily censored
LEWIS because of his vocal support of American tradi­
tions, American conservative political groups, support
of Americans Constitutional Right to Free Speech, op­
position to abortion, and support of Christian values,
violating LEWIS’ Constitutional Free Speech right to
affiliate with and speak in support of such causes and
groups as alleged earlier in this complaint.
214. GOOGLE/YOUTUBE’s censorship is a case of
public interest as a matter of public policy Since the
2016 Presidential Election of Donald Trump, The
United States government an the American people
have been deeply concerned that foreign countries
have interfered in United States electoral system, ma­
nipulated public opinion, and stifled political speech,
which is a direct threat to American sovereignty, Amer­
ican culture, and the American way of life.
215. GOOGLE/YOUTUBE, in their individual capac­
ity, as state actors, have knowingly, willfully, and mali­
ciously enforced foreign governments hate speech and
censorship laws, not just on LEWIS, but on United
States elected government officials, on news outlets,
and on American citizens by the tens of millions.

App. 123
216. GOOGLE/YOUTUBE’s actions were taken with
malice and/or arbitrary and capricious, as part of
GOOGLE/YOUTUBE’s normal course of business as
alleged herein.
217. Even if GOOGLE Wasn’t an agent of a Foreign
government, GOOGLE AND YOUTUBE are perva­
sively intertwined with the U.S. Government, and
thus, in their individual capacity, can be sued as gov­
ernment actors.
SECOND CAUSE OF ACTION
(National Origin Discrimination
Pursuant to 42 U.S.C. § 2000a)
218. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 206.
219. This is a case of first impressions in the District
of Colorado and is unsettled law nationally for the rea­
sons set forth below.
220. This cause of action is of public policy and na­
tional public interest.
221. LEWIS contends GOOGLE/YOUTUBE, as al­
leged above, is primarily an online theater and/or a
place of public exhibition or entertainment as defined
by 42 U.S.C. § 2000a. They sell, rent and/or exhibit
movies, TV shows, and other videos on their website
YouTube.com.

App. 124
222. The United States Department of Justice, Office
of the Assistant Attorney General, in a September
2018 letter to congress, discloses the D.O.J. has long
considered websites to be places of public accommoda­
tions for ADA purposes.
223. YOUTUBE, de facto stipulates/admits it’s a
place of public accommodation for ADA purposes, by
virtue of its closed captioning and other technical ac­
commodations it implements to provided Americans
with disabilities access to its video services.
224. GOOGLE and YOUTUBE de facto stipulates/
admits its a place of public accommodation for pur­
poses of civil rights, including but not limited to, on the
basis of race, color, religion, and/ or national origin, by
virtue of implementing community guidelines and
other technical tools that provide an inclusive environ­
ment for YouTube users who belong to any of these
groups. GOOGLE/YOUTUBE is very vocal in its mar­
keting and other messaging in confirming the exist­
ence of these civil rights based public accommodations.
225. YOUTUBE discriminates against LEWIS on the
basis of his national origin, by virtue of YOUTUBE
first demonetizing many of his videos, then demone­
tizing his entire channel, limiting video discovery for
videos he publishes to his YouTube channel, unsub­
scribing his YouTube channel subscribers, restricting
his videos, and removing videos because LEWIS is a
patriotic American citizen who promotes Constitu­
tional rights of Americans, Christian beliefs, and Amer­
ican laws and culture.

I

App. 125
THIRD CAUSE OF ACTION
(47 U.S.C. § 230 Is Unconstitutional)
226. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 213.
227. This cause of action is a case of first impressions.
228. This cause of action is of public policy and na­
tional public interest.
229. 47 U.S.C. § 230 is facially unconstitutional and/
or unconstitutional as applied to PLAINTIFF LEWIS
for vagueness, because the statute doesn’t define any
of the terms included under § (c)(2)(A), such as: “har­
assing, obscene, lewd, lascivious, filthy, excessively
violent, objectionable.” Normally this wouldn’t merit or
sustain either a facial or “as applied” constitutional
challenge. This is because pursuant to well settled
rules of statutory construction, one could use the plain
meaning of these words to define them. However,
§ (c)(2)(A) expressly allows providers of interactive
computer services, including but not limited to
GOOGLE and YOUTUBE to define these terms any
way they like when the statute states, in pertinent
part:
No provider or user of an interactive computer
service shall be held liable on account of any
action voluntarily taken in good faith to re­
strict access to or availability of material that
the provider or user considers to be obscene,
lewd, lascivious, filthy, excessively violent, har­
assing, or otherwise objectionable . . .

App. 126
Further, providers of interactive computer services, in­
cluding GOOGLE and YOUTUBE, under § 230, could
initially adopt one definition for these terms, then at a
later date, redefine these terms to mean something en­
tirely different without incurring any civil liability.
Even worse, they could redefine these terms as many
times as they wanted without any threat of civil liabil­
ity.
230. 47 U.S.C. § 230 is facially unconstitutional and/
or unconstitutional as applied to PLAINTIFF LEWIS
because it is over-broad. The United States Constitu­
tion’s First Amendment states in pertinent part: “Con­
gress shall make no law . . . abridging the freedom of
speech.” Yet, this is exactly what 47 U.S.C. § 230(c)(2)(A)
does, by virtue of allowing interactive computer service
providers, including GOOGLE and YOUTUBE, at
will, to restrict access to or availability of interactive
computer services they provide, “whether or not such
material is constitutionally protected.” GOOGLE and
YOUTUBE have knowingly, expressly, maliciously, and
capriciously restricted LEWIS access YouTube.com by
virtue of censoring his videos from his subscriber base,
new potential viewers, and barring him from earning
Ad revenue in retaliation for exercising his Constitu­
tionally protected right to freedom of speech and free­
dom of association under the First Amendment of the
Constitution of the United States. PLAINTIFF LEWIS
isn’t the only victim of GOOGLE and YOUTUBE’s
unconstitutional censorship pursuant 47 U.S.C. § 230.
Many elected United States officials, and millions
of American citizens have also been silenced and/or

App. 127
otherwise unconstitutionally censored by GOOGLE
and YOUTUBE acting under the protection of 47
U.S.C. § 230.
231. 47 U.S.C. § 230 is facially unconstitutional and/
or unconstitutional as applied to PLAINTIFF LEWIS
because it is internally inconsistent. When reviewing
the statute §(a) and §(b) it appears Congresses legisla­
tive intent in the creation of this statute was to in­
crease availability of online content and interactive
media regardless of whether its political, educational,
cultural or for the pure entertainment value. Yet,
§(c)(2)(A) does the exact opposite, by allowing interac­
tive computer services, including GOOGLE and
YOUTUBE to restrict this content, thus making the
statute itself internally inconsistent pursuant to the
rules of statutory construction.
FOURTH CAUSE OF ACTION
(Fraud)
232. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 219.
233. GOOGLE/YOUTUBE, at all times publicly pre­
sents itself as a free speech platform, free from unlaw­
ful censorship.
234. YOUTUBE/GOOGLE, in its terms of service,
community guidelines, or anywhere on its websites
YouTube.com or Google.com or by any other direct
means, never discloses to YouTube/ Google American

App. 128
citizen registered users that it employs and/or assigns
foreign government entities and/or agencies as trusted
flaggers. GOOGLE/YOUTUBE actively conceals the
identities of its trusted flaggers.
235. YOUTUBE/GOOGLE never discloses to Ameri­
can citizen registered users that their Constitutionally
protected right to free speech could be silenced and/or
censored if a foreign government objects to it.
236. YOUTUBE/GOOGLE never discloses to Ameri­
can citizen registered users that any monetization
from ad revenue that they may be entitled to, could be
suspended, restricted, or ended, if a foreign govern­
ment objects to it.
237. YOUTUBE/GOOGLE never disclosed to Ameri­
can citizen registered users that it abandoned its orig­
inal principles of American Constitutional style free
speech in favor of a more censored European/Chinese
ideological perspective.
238. YOUTUBE/GOOGLE never disclosed to Ameri­
can citizen registered users that it maintained black­
lists of words, websites, users, and/or other material/
content.
239. YOUTUBE/GOOGLE never disclosed to Ameri­
can citizen registered users and advertisers that
through algorithm censorship and blacklists, such as
Twiddler, Adscorer and other internal tools, it artifi­
cially promoted (increasing traffic) and demoted (de­
creasing traffic) websites, YouTube channels, and other
online material. By doing this, YOUTUBE/GOOGLE

App. 129
artificially increased ad revenue for YOUTUBE/
GOOGLE and the organizations and individuals pro­
moted, while at the same time artificially decreasing
ad revenue for organizations and individuals demoted.
240. At all times, GOOGLE/YOUTUBE was aware
they were misleading American citizen registered us­
ers, as described above, including but not limited to,
through falsely claiming they maintained no blacklists
and didn’t shadow ban or otherwise wrongfully censor
legal content from their platforms.
241. GOOGLE, in their ongoing effort to conceal
these and other facts proving GOOGLE’s malfeasance
from American people, GOOGLE CEO, Sundar Pichai,
knowingly, purposefully, and maliciously lied to the
United States Congress when forthrightly and ex­
pressly asked about these issues. This is a violation of
United States Federal Law.
242. PLAINTIFF LEWIS, as well as the American
public, generally, was ignorant of the fact that
GOOGLE/YOUTUBE misrepresented/concealed the
facts contained in statements 1 thru 242. At all times,
GOOGLE/YOUTUBE, purposefully and with willful
intent, expected their misrepresentations/omissions be
acted upon, by PLAINTIFF LEWIS specifically and the
American people, generally.
243. LEWIS, because he relied on misrepresenta­
tions and/or omissions of DEFENDANTS was dam­
aged as described in statements 1 thru 227 herein,
including but not limited to, having his channel de­
monetized, having his videos censored in a variety of

App. 130
ways, and being discriminated against based on his na­
tional origin as a patriotic American citizen, his Chris­
tian beliefs, thru censoring his Constitutionally
protected right to free speech and freedom to associate.
FIFTH CAUSE OF ACTION
(Breach of Implied Covenant of
Good Faith and Fair Dealing)
244. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 231.
245. LEWIS and GOOGLE/YOUTUBE entered into
written contracts in which GOOGLE/YOUTUBE
agreed to provide access to GOOGLE services, You­
Tube access, hosting, streaming, advertising and/or ad
revenue share services to LEWIS. Those contracts
give GOOGLE/YOUTUBE unilateral discretion to re­
move, restrict, demonetize or demote (decrease traffic)
LEWIS’ content as they see fit. It also allow GOOGLE/
YOUTUBE to change their contractual terms at any
times, without notice to LEWIS, and requires LEWIS
to stipulate to agreeing to any changes, whatever they
may be.
246. Implied in those contracts is the implied cove­
nant of good faith and fair dealing. This is especially
true since these contracts are, by definition, are con­
tracts of adhesion, and provide GOOGLE/YOUTUBE
unilateral and unfettered discretionary control over
literally every aspect of their contractual relationship

App. 131
with LEWIS. YOUTUBE/GOOGLE have exercised this
control, repeatedly, and without any meaningful notice
to LEWIS, and without any meaningful negotiation,
discussion, or credible/meaningful appeal. To the ex­
tent GOOGLE/YOUTUBE’s discretionary authority un­
der these contracts is valid, they are obliged to exercise
them fairly and in good faith.
247. LEWIS, for his part, substantially performed
all significant duties required of him under his writ­
ten agreements with GOOGLE/YOUTUBE and/or was
excused from those duties and/or activities. None of
LEWIS’ demonetized and/or restricted videos vio­
lates the letter or spirit of any term in GOOGLE/
YOUTUBE’S contracts with LEWIS.
248. GOOGLE/YOUTUBE was bound by the implied
covenant of good faith and fair dealing in their agree­
ments, terms, and other policies, not to engage in any
acts, conduct, or omissions that would impair or dimin­
ish LEWIS’ rights and benefits of the parties’ agree­
ments, United States Law, or lawful rights provided to
LEWIS under the United States Constitution. Pursu­
ant to the terms of those agreements, LEWIS was to
have equal and organic access to a wide audience to
promote his messages, and it was in reliance on
GOOGLE/YOUTUBE’s representations to: “help you
grow . . . discover what works best for you . . . give you
tools, insights, and best practices for using your voice
and videos.” This is the reason LEWIS chose YouTube
as the main host of his videos. Also, pursuant to those
agreements, LEWIS was entitled to some portion of ad
revenue profits that GOOGLE/YOUTUBE earned as a

App. 132
direct result of hosting LEWIS’ content. However,
GOOGLE/YOUTUBE have, by acts and omissions al­
leged herein, intentionally and tortiously breached the
implied covenant of good faith and fair dealing by un­
fairly, unlawfully, and discriminatorily, interfering
with LEWIS’ rights to receive benefits of those con­
tracts.
249. GOOGLE/YOUTUBE willfully engaged in the
forgoing acts and omissions with full knowledge that
they were bound to act consistently with the covenant
of good faith and fair dealing. Those acts and omissions
were not only failures to act fairly, and in good faith,
but they were acts of oppression, discrimination, fraud,
and actual malice.
250. As a direct and proximate result of the afore­
mentioned conduct of GOOGLE/YOUTUBE LEWIS
suffered and continues to suffer, immediate and irrep­
arable injury in fact, including lost income, reduced
viewership, and damage to his brand, reputation, and
goodwill, for which there exists no adequate remedy at
law.
SIXTH CAUSE OF ACTION
(GOOGLE/YOUTUBE’s
Contracts Are Unconscionable)
251. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 228.

App. 133
252. GOOGLE/YOUTUBE’s adhesion contracts with
LEWIS are unconscionable because of unequal bar­
gaining power as alleged earlier in this complaint.
GOOGLE/YOUTUBE not only have majority market
penetration in the United States, but are in fact a mo­
nopoly. Whereas, LEWIS is an individual with nowhere
near the influence, net worth, or global impact of
GOOGLE.YOUTUBE.
253. GOOGLE/YOUTUBE’s adhesion contractual pro­
vision that allows them to change any of the terms at
any time, at will, without notice to LEWIS, and also
requires him to pre-stipulate to any of these “at will”
changes without no notice or negotiation whatsoever,
constitutes unfair surprise to LEWIS, which is uncon­
scionable.
254. The adhesion contractual term that allows
GOOGLE/YOUTUBE to “at will” make changes to any
and all terms of the agreement, as also been adopted
by GOOGLE/YOUTUBE’s main competition, thus
LEWIS has no meaningful choice of whether or not
to publish videos on YOUTUBE’s platform, because
most if not all, of their main competitors have either
the same or constructively similar terms within their
agreements and YOUTUBE has the most market pen­
etration/ market power/ monopoly power of any com­
pany that offers the same or a constructively similar
service.
255. The ability to make “at will” changes provision
of GOOGLE/YOUTUBE’s contracts, when combined
with the requirement for LEWIS to pre-stipulate to

App. 134
any “at will” changes DEFENDANTS make, poten­
tially forces LEWIS to unknowningly pre-waive his le­
gal and constitutional rights. This constitutes unfair
surprise and renders any contract with the ability to
make “at will” changes unconscionable, on its face.
256. GOOGLE/YOUTUBE, as previously alleged
herein, has knowingly, maliciously, and willfully, used
this and other unconscionable clauses within its con­
tracts to oppress, discriminate, and otherwise mali­
ciously harm LEWIS by forcing him to lose income,
reputation, damage to hi-brand, reduced viewership
and other damages as alleged herein.
SEVENTH CAUSE OF ACTION
(Lanham Act- 15 U.S.C. §1125 et seq.)
257. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 242.
258. GOOGLE/YOUTUBE are engaged in interstate
commerce and competition through hosting, creating,
advertising, and soliciting and receiving revenue for
advertising, video streaming, services on the YouTube,
com website. GOOGLE/YOUTUBE competes with
video producers like LEWIS in the market of online
video streaming/viewing by creating, hosting, and pro­
moting their own online video content.
259. GOOGLE/YOUTUBE engage in an ongoing
pattern and practice of knowingly and willfully mis­
leading and deceptive advertisement and unfair

App. 135
competition. GOOGLE/YOUTUBE advertise them­
selves as a word, term, name, symbol, and device, as a
forum for open and intellectually diverse expression by
a variety of speakers/registered users across the globe.
GOOGLE/YOUTUBE actively, unfairly, knowingly and
deceptively misrepresent the nature, characteristics,
and qualities of GOOGLE/YOUTUBE’s services and
other commerical activities as an equal, open and di­
verse public forum committed to American style free
speech. GOOGLE/YOUTUBE unfairly enhance their
image and goodwill of their content, while degrad­
ing/demoting/restricting LEWIS and his videos by sug­
gesting LEWIS and his speech are offensive, hateful
and/or otherwise inappropriate and/or objectionable.
260. GOOGLE/YOUTUBE’s false representations
and unfair competition deceived, and had a tendency
to deceive, substantial segments of GOOGLE/YOUTUBE’s
audience, including video producers like LEWIS, view­
ers, and advertisers, who rely on those misrepresen­
tations and are wrongfully induced to traffic and/or
otherwise do business with YOUTUBE, and to view/
not view particular videos. As a direct and proximate
consequence of GOOGLE/YOUTUBE’s actions as al­
leged in this complaint, LEWIS has suffered and con­
tinues to suffer immediate and irreparable injury in
fact, including, but not limited to, lower viewership, de­
creased/lost ad revenue, a potential reduction in adver­
tisers willing to purchase advertisements that were
previously shown on LEWIS’S videos, diverted viewership, and damage to LEWIS’ brand, reputation, and
goodwill.

App. 136
261. GOOGLE/YOUTUBE’s wrongful acts were taken
with oppression, discriminatory intent, fraud and/or
actual malice. LEWIS attempted to remedy the situa­
tion through YouTube’s internal appeals process,
which is the only mechanism available to LEWIS.
GOOGLE/YOUTUBE repeatedly refused to uncensor
his videos and restore his ad revenue and/or cease
other forms of discrimination against LEWIS alleged
herein. GOOGLE/YOUTUBE has yet to articulate any
credible or otherwise meaningful for their differential
treatment of LEWIS. GOOGLE/YOUTUBE treats
video producers like LEWIS the same as part of their
normal pattern and practice in the course of their daily
business activities, by virtue of their internal algo­
rithm censorship through Twiddler and other internal
tools, internal blacklists, foreign government/agency
trusted flaggers, and other forms of bad faith conduct
alleged herein.
EIGHTH CAUSE OF ACTION
(GOOGLE doesn’t meet the “Good Faith”
Requirements of 47 U.S.C. § 230)
262. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 247.
263. If the Court determines that 47 U.S.C. § 230 is
constitutional, then LEWIS contends that based on the
allegations included herein, GOOGLE/YOUTUBE de­
serves no civil immunity from liability, because, as pre­
viously stated herein, DEFENDANTS have not met

App. 137
the “good faith” requirement for immunity from civil
liability as required under to 47 U.S.C. § 230.
NINTH CAUSE OF ACTION
(Tortious Interference
with Economic Advantage)
264. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 249.
265. GOOGLE/YOUTUBE discriminates, demonetizes,
and/or otherwise censors (as alleged herein) LEWIS as
part of an ongoing pattern and practice to silence
American citizens on behalf of foreign government
trust flaggers and/or other agents.
266. LEWIS’S YouTube channel, brand, and repu­
tation, prior to GOOGLE/YOUTUBE’s knowingly
unlawful and unethical interference, was growing
significantly.
267. GOOGLE/YOUTUBE intentionally and mali­
ciously interfered with LEWIS’ business interests by
the conduct set forth above, specifically, without limi­
tation, in its role as censoring LEWIS on their websites
and platforms, from which he has been algorithm cen­
sored and demonetized.
268. LEWIS has suffered. Unless enjoined by this
Court, will continue to suffer financial and other dam­
age as a direct and proximate result of GOOGLE/

App. 138
YOUTUBE’s wrongful, discriminatory, and malicious
conduct. LEWIS has no adequate remedy at law.
TENTH CAUSE OF ACTION
(Request For Declaratory Relief)
269. PLAINTIFF LEWIS alleges and incorporates all
preceding allegations as fully set forth above in para­
graphs 1 through 254.
270. An actual controversy exists between LEWIS
and GOOGLE/YOUTUBE as to whether GOOGLE/
YOUTUBE’s policies, procedures and their pattern and
practice as applied and alleged herein violate 42 U.S.C.
§ 1983, 42 U.S.C. § 2000a,15 U.S.C. §1125, the consti­
tutionality of 47 U.S.C. § 230, and (if the court deter­
mines 47 U.S.C. § 230 is constitutional) whether or
not GOOGLE/YOUTUBE meet the good faith require­
ments for immunity from civil liability under 47 U.S.C.
§ 230. Further, an actual controversy exists as to
whether or not GOOGLE/YOUTUBE’s contracts with
LEWIS are unconscionable.
271. A public policy and national public interest con­
troversy also exists between LEWIS and GOOGLE/
YOUTUBE as to whether or not GOOGLE/YOUTUBE
operates on within the United States against United
States citizens as a joint enterprise pervasively inter­
twined agent of foreign governments.
272. Another public policy and national public inter­
est controversy exists between LEWIS and GOOGLE/
YOUTUBE regarding “hate speech” policies. In the

App. 139
United States, neither Congress, nor the Courts have
ever recognized “hate speech” as a valid and/or credible
reason to silence and/or otherwise censor American cit­
izens constitutionally protected right to free speech.
273. Unless the Court issues an appropriate declara­
tion of rights, the parties and the American people will
not know whether GOOGLE/YOUTUBE’s policies, pro­
cedures and normal pattern and practice regarding the
DEFENDANT’S conduct comply with applicable State
and Federal law, including but not limited to, United
States Constitutional protections of American citizens.
I ‘ the Court fails to issue an appropriate declaration of
rights there will continue to be public policy and na­
tional public interest disputes and controversy sur­
rounding GOOGLE/YOUTUBE’s policies, procedures,
and application of them.
VI. PRAYER FOR RELIEF
WHEREFORE, PLAINTIFF LEWIS respectfully
prays for relief and judgment as follows:
274. For Declaratory Judgments as follows:
A) GOOGLE/YOUTUBE are joint-interest and
pervasively intertwined state actors/agents
of foreign governments pursuant to 42 U.S.C.
§ 1983 and, in their individual capacity,
violated and continue to violate LEWIS’
First Amendment rights to Free Speech and
Freedom of Affiliation under color of foreign
law.

App. 140
B) GOOGLE/YOUTUBE websites Google.com
and YouTube.com are places of public accom­
modation, as online theaters and/or places of
public exhibition within the meaning of 42
U.S.C. § 2000a and that DEFENDANTS dis­
criminated against LEWIS because of his re­
ligion and national origin as a patriotic
Christian and American citizen.
C) GOOGLE/YOUTUBE’s hate speech polices
used to censor American citizens, on their
face, are un-American and serve to chill
LEWIS’ free speech rights, and constitute an
unconscionable contract clause as a matter of
Constitutional law, public policy, and national
public interest.
D) GOOGLE/YOUTUBE’s contractual clause al­
lowing them to alter the terms of their con­
tracts “at will” without notification and
forcing to LEWIS to pre-stipulate to any
and all of GOOGLE/YOUTUBE’s contrac­
tual alterations constitutes an unconsciona­
ble contract clause and are unenforceable as
a matter of law and public policy interest.
E) 47 U.S.C. § 230, facially and/or “as applied” to
LEWIS is unconstitutional due to being over­
broad, vague, and/or internally inconsistent.
F) In the alternative, GOOGLE/YOUTUBE doesn’t
. meet the “good faith” requirement for immun­
ity to civil liability pursuant to 47 U.S.C.
§230.
G) GOOGLE/YOUTUBE committed Fraud by
misrepresenting to LEWIS and the American

App. 141
people that they don’t maintain blacklists or
artificially promote/demote content of users.
H) Any other judgments the Court deems appro­
priate, based on the facts alleged herein.
275. For an injunction requiring GOOGLE/YOUTUBE

to:
A) cease and desist from capriciously restricting,
demonetizing, or otherwise censoring of any
videos or other content of LEWIS and Ameri­
can Citizens on either YouTube.com or any
other website created, administered or run by
DEFENDANTS.
B) Cease and desist enforcement of “Hate
Speech” policies against LEWIS or any other
American citizen.
C) Publicly disclose which foreign governments
or agencies (including their agents, public and
private) work with DEFENDANTS as trusted
flaggers or in any other capacity.
D) Cease and desist artificially promoting and
demoting videos and/or any other content on
its platforms.
276. For actual, compensatory, special, and statutory
damages in an amount to be proven at trial.
277. For punitive damages.no less than $5 billion dol­
lars.
278. For restitution of financial losses or harm
caused by DEFENDANTS conduct and in an amount
to be proven at trial.

App. 142
279. Attorneys fees and costs of suit.
280. For prejudgment and post judgment interests.
281. For any and all other additional relief the Court
deems appropriate, just, and proper.
JURY DEMAND
PLAINTIFF demands trial by jury on all issues of law
or fact so triable
DATED: November 10, 2019
Respectfully Submitted
Andrew Martin Esq.
By: /s/ Andrew Martin
Andrew Martin
Attorney for Plaintiff,
Bob Lewis

i

